<html>
<title> - NATO 2030: A CELEBRATION OF ORIGINS AND AN EYE TOWARD THE FUTURE (E3C SUBCOMMITTEE----NATO PARLIAMENTARY ASSEMBLY JOINT HEARING)</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


    NATO 2030: A CELEBRATION OF ORIGINS AND AN EYE TOWARD THE FUTURE
     (E3C SUBCOMMITTEE__NATO PARLIAMENTARY ASSEMBLY JOINT HEARING)

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 24, 2021

                               __________

                           Serial No. 117-53

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-883 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                       
                       
                       
                       
                   COMMITTEE ON FOREIGN AFFAIRS

                  GREGORY W. MEEKS, New York, Chairman
                  
BRAD SHERMAN, California              MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia	      CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida	      STEVE CHABOT, Ohio
KAREN BASS, California		      SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	      DARRELL ISSA, California
DAVID CICILLINE, Rhode Island	      ADAM KINZINGER, Illinois
AMI BERA, California		      LEE ZELDIN, New York
JOAQUIN CASTRO, Texas	              ANN WAGNER, Missouri
DINA TITUS, Nevada		      BRIAN MAST, Florida
TED LIEU, California		      BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	      KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota	      TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota		      MARK GREEN, Tennessee
COLIN ALLRED, Texas		      ANDY BARR, Kentucky
ANDY LEVIN, Michigan		      GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia	      DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania	      AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey	      PETER MEIJER, Michigan
ANDY KIM, New Jersey	              NICOLE MALLIOTAKIS, New York
SARA JACOBS, California		      RONNY JACKSON, Texas
KATHY MANNING, North Carolina	      YOUNG KIM, California
JIM COSTA, California		      MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California		      JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas		      
BRAD SCHNEIDER, Illinois              
                                   

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                               
                                                          

        Subcommittee on Europe, Energy,the Environment and Cyber

              WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, 
ABIGAIL SPANBERGER, Virginia             Pennsylvania,Ranking Member
ALBIO SIRES, New Jersey		     ANN WAGNER, Missouri
THEODORE DEUTCH, Florida	     ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island	     BRIAN MAST, Florida
DINA TITUS, Nevada		     DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota	     AUGUST PFLUGER, Texas
JIM COSTA, California		     NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas		     PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois
                                   

                      Leah Nodvin, Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rasmussen, His Excellency Anders Fogh, Founder & Chairman, 
  Rasmussen Global, Former Secretary General, NATO, Former Prime 
  Minister of Denmark............................................    11
Gottemoeller, The Honorable Rose, Frank E. and Arthur W. Payne 
  Distinguished Lecturer, Center for International Security and 
  Cooperation, Freeman Spogli Institute for International 
  Studies, Stanford University, Former Deputy Secretary General, 
  NATO, Former Undersecretary of State for Arms Control and 
  International Security Affairs, U.S. Department of State.......    18
Daalder, The Honorable Dr. Ivo H., President, Chicago Council on 
  Global Affairs, Former U.S. Ambassador to NATO.................    25
Mitchell, The Honorable Dr. A. Wess, Co-Chair, NATO 2030 
  Reflection Group, Former Assistant Secretary of State for 
  European and Eurasian Affairs, U.S. Department of State........    33

                                APPENDIX

Hearing Notice...................................................    64
Hearing Minutes..................................................    66
Hearing Attendance...............................................    67

            CORRECTION TO THE STATEMENT OF ROSE GOTTEMOELLER

Correction to the statement of Rose Gottemoeller.................    68

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Wagner..........................................    69

                   STATEMENT SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Sanchez...    70

 
   NATO 2030: A CELEBRATION OF ORIGINS AND AN EYE TOWARD THE FUTURE 
    (E3C SUBCOMMITTEE----NATO PARLIAMENTARY ASSEMBLY JOINT HEARING)

                        Thursday, June 24, 2021

                          House of Representatives,
                Subcommittee on Europe, Energy, the
                             Environment and Cyber,
                      Committee on Foreign Affairs,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10:02 a.m., 
via Webex, Hon. William R. Keating (chairman of the 
subcommittee) presiding.
    Mr. Keating. The House Foreign Affairs Subcommittee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point and all members will have 
5 days to submit statements, extraneous materials, and 
questions for the record, subject to the length limitation in 
the rules.
    To insert something into the record, please have your staff 
email the previously mentioned address and contact full 
committee staff.
    Please keep your video function on at all times, even when 
you're not recognized by the chair. Members are responsible for 
muting and unmuting themselves, and please remember to mute 
yourself after you finish speaking.
    Consistent with House Res. 965 and the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
the background noise.
    I will note that we have a hard stop today at 12 p.m. So I 
ask the witnesses and my colleagues to keep their remarks to 5 
minutes. We'll monitor this.
    We'll be working--restricting members' questions time to 5 
minutes so that we can afford as many people the opportunity to 
question as possible since this is a joint effort.
    I see that we have a quorum. I now recognize myself for 
opening remarks.
    Pursuant to notice, we're holding a hearing today entitled 
``NATO 2030: A Celebration of Origins and an Eye Toward the 
Future.''
    Ten years ago on June 14th, in true testament to the power 
of the Trans-Atlantic Alliance, 10 days ago rather, all 30 
allied nations met at the NATO Summit in Brussels and agreed to 
launch an ambitious set of initiatives meant to ensure the 
collective security of NATO members well into the 21st century.
    Moreover, President Biden reaffirmed the United States' 
commitment to NATO principles and responsibilities, most 
notably, America's steadfast commitment to Article 5, that an 
attack on any member of our Trans-Atlantic Alliance is an 
attack on all and will be met with a collective response.
    In anticipation of last week's summit, my colleague and 
current president of the NATO Parliamentary Assembly, 
Representative Connolly, and I decided to organize this hearing 
to echo support for trans-Atlantic security ideals, reflect on 
and reaffirm the NATO alliance, and examine the critical 
takeaways from this year's summit.
    Before I continue with my opening statement, I'd like to 
offer my thanks to you and your staff, Representative, for 
jointly helping us to organize this hearing today, and I 
commend your tireless efforts to preserve and strengthen the 
alliance and I look forward to continuing our work together 
during Congress.
    I also welcome all NATO Parliamentary Assembly members who 
joined us today, which will undoubtedly elevate our discussion.
    One of the first hearings I held as chairman of the 
subcommittee, roughly, 2 years ago was on the importance of the 
NATO alliance as well as the opportunities and challenges that 
our alliances face.
    Much has changed in that relatively short period of time. 
We have had a Presidential election, undergone a global 
pandemic, tackled important social issues globally, and much 
more.
    But what has remained constant through all of this is the 
vital role of NATO in our collective security and prosperity.
    Looking toward the future and to quote Secretary General 
Stoltenberg, NATO must ensure the alliance can face the 
challenges and threats of today and, importantly, tomorrow.
    These new and emerging security concerns include increased 
acts of aggression from China, Russia, and other malign actors, 
as well as an increase in asymmetrical threats, including 
cyber-attacks, hybrid warfare, terrorism, and climate change.
    With new and emerging threats from traditional and 
nontraditional sources, the Biden administration's renewed 
commitment to our trans-Atlantic alliances and the role of 
American leadership at NATO has never been more important than 
it is now.
    America has a responsibility to assure our NATO allies that 
this institution has been and will continue to be a cornerstone 
of our security and defense policies. Our unbreakable and 
values-based coalition is the strategic advantage that we have 
over our adversaries.
    But these new and emerging threats, in the words of former 
Secretary of State Madeleine Albright, also mean that NATO, 
like all things that reach a certain age, needs a little 
refurbishment.
    This means contemplating possible changes of NATO structure 
and strategic thinking, not only about how NATO should adapt to 
this landscape but also how the U.S. and other member States 
must work together to strengthen the alliance and increase 
their own contributions.
    For these reasons, I strongly support Secretary General 
Stoltenberg's efforts to gather diverse and inclusive voices in 
developing his priorities for NATO 2030, and was heartened to 
see leaders of the Western alliance make clear at the most 
recent summit that NATO is ready and equipped to tackle the 
security challenges facing the world today.
    Now, to better understand the outcomes and decisions made 
during the summit and the role of Congress in it, my colleagues 
and I and the NATO Parliamentary Assembly have invited an 
incredibly experienced and knowledgeable high-level set of 
witnesses intimately familiar with NATO and the many 
challenges: former Secretary General Anders Fogh Rasmussen, 
former Deputy Secretary General Rose Gottemoeller, former U.S. 
Ambassador to NATO, Ivo Daalder, and co-chair of the NATO 2030 
Reflection Group, Wess Mitchell.
    As a former NATO--as former NATO leaders and trans-Atlantic 
security professionals, you've been intimately involved in the 
inner workings of the alliance. You champion its ideals and 
have sought to modernize its impact on global security.
    Your testimony will help us better understand the long-
standing impacts of decisions made by NATO member States to 
ensure long-lasting security for generations to come.
    NATO, now in its 73d year, is most powerful and successful 
alliance in history and one that continues to provide security 
for approximately 1 billion people in Europe and North America 
today.
    As Members of Congress, we continue to support the work 
you've contributed to preserving and strengthening in this 
critically important political military alliance, and I look 
forward to hearing your testimony today.
    I now turn to Ranking Member Brian Fitzpatrick for his 
opening statement.
    Mr. Fitzpatrick. Thank you, Chairman Keating. Thank you to 
our witnesses, to Chairman Connolly, to all those joining us 
from the NATO Parliamentarian Assembly.
    And today, we have the opportunity to hear from individuals 
who have set the agenda for NATO to learn from their past 
decisions and discuss how to ensure NATO is stronger and better 
prepared for the future.
    Earlier this month, NATO Secretary General Stoltenberg 
revealed the NATO 2030 agenda to address some of the most 
pressing issues facing our trans-Atlantic partnership.
    The summit in Brussels marked a critical juncture of future 
cooperation amongst our allies, recognizing ways to work 
together and how to address the looming threat of our two 
strategic competitors, China and Russia.
    And as a founding member, the United States is fully 
committed to the NATO alliance and to the Article 5 collective 
defense guarantee.
    First invoked after the 9/11 terror attacks, our NATO 
allies stood shoulder to shoulder with the United States, 
sacrificing greatly in solidarity, and as we look to the 
future, a similar solidarity must be held when realizing the 
commitment of the 2014 Wales Summit.
    NATO members must resist calls to downgrade the burden 
sharing formulas of 2 percent of GDP on defense and 20 percent 
of annual defense spending going toward new equipment, 
research, and development.
    Greater cooperation amongst our NATO allies is also 
critical to Euro-Atlantic security and shared prosperity, and, 
as recognized at the Brussels Summit, China and Russia have 
leveraged their economic interests and hybrid tactics to 
subvert Western institutions.
    The summit's final item identified China for the first time 
as posing systemic challenges to our alliance. The NATO allies 
agree that ``China's coercive policies stand in contrast to the 
fundamental values enshrined in NATO's founding treaty,'' and 
that was a direct quote.
    China's predatory investments in the critical 
infrastructure of our NATO allies should be thoroughly examined 
where there might--where they might impair military mobility, 
resilience, and readiness.
    However, naming China as a threat is not enough. We need to 
assure the alliance, in coordination with EU, takes concrete 
actions to address the threat of the Communist Chinese Party 
and the threat they pose to Euro-Atlantic security.
    This will require the Biden administration to rally our 
NATO allies, including those who might not see the CCP as a 
pressing concern, to convince them that we cannot protect our 
collective interests without confronting the CCP directly as a 
united front.
    Russia has intensified its cyber and disinformation 
campaigns targeting NATO member States and partner States. They 
have interfered with the democratic processes, harbored cyber 
criminals, violated NATO airspace, and engaged in provocative 
military activities.
    Most notably, Russia has a sustained campaign of hostile 
and illegal occupation of NATO partner nations. Today, it's our 
hope that our witnesses can discuss what actions must take 
place for NATO partner countries to advance in their pursuit of 
membership.
    Earlier this month, NATO leaders reiterated a 2008 pledge 
that Georgia and Ukraine will receive a Membership Action Plan. 
Ukraine has endured 7 years of Russian-instigated hot war and 
illegal annexation of Crimea, relentless cyber, and provocative 
military buildups on their border and in the Black Sea.
    The illegal occupation of territory in Ukraine by Russia 
cannot be a disqualifying factor in creating a membership 
action plan from NATO.
    It is my hope today that we can learn from our witnesses on 
how NATO can confront future threats and find a more equitable 
share of responsibility in reaching these objectives.
    While modernization will not be easy, it is a necessary 
step in the face of the challenges we face in the next decade. 
I look forward to the testimony.
    Mr. Chairman, I yield back.
    Mr. Keating. I thank the ranking member.
    I'll now turn to the chairman of the NATO Parliamentary 
Assembly, Representative Gerry Connolly, for his opening 
remarks.
    Mr. Connolly. Thank you so much, Bill--Mr. Chairman, and 
thank you to Mr. Fitzpatrick, the ranking member.
    This is the first time, I think, ever we have had a joint 
hearing jointly sponsored by the House Foreign Affairs 
Committee, the European Subcommittee, and the NATO 
Parliamentary Assembly delegation.
    I think it's important to remember that the NATO 
delegation--the U.S. delegation to the NATO Parliamentary 
Assembly is actually codified in law.
    There are not a lot of inter-parliamentary groups that are 
codified in law, but ours is. It's authorized in law and the 
membership is specified in law.
    I think it's also important to note that we have got a 
great panel and we have been working with that panel getting 
ready for the 2030 update of the strategic plan for NATO.
    We have got a very vibrant U.S. delegation that is 
participating in NATO Parliamentary Assembly. We just received 
the secretary general a few weeks ago and hosted, with your 
participation.
    Mr. Chairman, you know, a session with the secretary 
general, who, of course, is also the first and only secretary 
general to have been invited on a bipartisan basis to address a 
joint session of the U.S. Congress.
    We're also pleased that Nancy Pelosi, the Speaker of the 
House, is a former member of the NATO Parliamentary Assembly 
and is the only speaker in the history of NATO PA to have 
addressed the annual meeting of the NATO Parliamentary Assembly 
not once but twice, and she's very committed to our endeavors.
    Last week, NATO heads of State in government met in 
Brussels to develop a consensus on critical challenges facing 
the alliance.
    Together, allies reaffirmed NATO's core mission and values, 
set key priorities for the alliance, going forward, and 
detailed several new initiatives on resilience, emerging 
technologies, climate change, and other pressing issues.
    The alliance is at a critical juncture. The world continues 
to emerge from this devastating pandemic. The international 
power distribution is shifting fundamentally and the shared 
values upon which the alliance was founded are under threat, 
both from external forces of autocracy and authoritarianism 
and, sadly, internal extremist elements that would undermine 
liberal Western democratic principles.
    It is in this context that the alliance needs a renewed 
U.S. commitment to NATO, multilateral action against the myriad 
threats posed by China, and to take concrete steps to 
strengthen democratic institutions throughout the alliance and 
within the alliance.
    I believe the alliance achieved two of the three goals at 
the summit but fell short on the critical issue of shared 
values.
    After 4 years of an American administration engaged in 
self-defeating attacks on NATO, contemplations of withdrawal 
from the Washington treaty itself and a less than full embrace 
of Article 5, President Biden has used the Brussels Summit to 
signal to our allies and the world that America is back. Our 
allies and partners are already breathing a collective sigh of 
relief.
    By all accounts, the United States helped marshal key 
summit deliverables on China, as Mr. Fitzpatrick just talked 
about. The summit communique went beyond the 2019 London 
declaration identifying China as presenting both challenges and 
opportunities and, instead, articulated a more sober assessment 
of the multifaceted and persistent challenges and threats posed 
by China.
    Getting China on the political and military agenda is 
something I've recommended in NATO reports I've written, 
including a report in 2019, ``The Rise of China: Implications 
to Global and Euro-Atlantic Security.''
    China has the world's largest military, including the 
largest navy and what is soon to become the world's largest 
economy. It is increasing its investments in military 
modernization, critical infrastructure abroad, and emerging 
technologies.
    China is exporting its authoritarian model of governance 
while it's doing all of that, which runs counter and directly 
challenges the core values of our alliance while crushing 
democratic movements in places like Hong Kong.
    It is engaged in cyber espionage against NATO countries and 
domestic industries, and as NATO Secretary General has 
observed, China demands our attention not because the alliance 
seeks to move into the South China Sea, but because China is 
increasing its influence and expanding its activities in the 
Euro-Atlantic region.
    It is far past time that NATO undergo a comprehensive 
evaluation of the threats posed by China to the Alliance. The 
decision at the summit to revise NATO's Strategic Concept is an 
opportunity to do just that. The current concept adopted in 
2010 does not even mention China.
    Furthermore, it identifies Russia still as a potential 
strategic partner. Russia continues, forcibly and illegally, to 
occupy Crimea and portions of Eastern Ukraine, Georgia, and 
Moldova, and Putin's military political apparatus actively 
seeks to undermine or disrupt democratic elections and 
institutions throughout our alliance and would-be partners and 
members of the alliance.
    Where I believe the summit fell short and what the rewrite 
of the Strategic Concept in my view must address is the clear 
imperative to bolster democracy within the alliance and across 
the alliance.
    And given the events of January 6th in our country, this is 
an issue the United States can approach with a healthy dose of 
humility. If it can happen here, it can happen elsewhere.
    NATO success over the past 70 years is not only due to its 
military might and capabilities, but also the fact that it is 
an alliance underpinned by common democratic values.
    Article 2 of the North Atlantic Treaty States they, member 
States, are determined to safeguard the freedom common heritage 
and civilization of their peoples founded on the principles of 
democracy, individual liberty, and the rule of law.
    As the global march of autocracy quickens, NATO must 
rededicate itself to shared democratic values in concrete ways. 
We must continue to insist the allies uphold the founding 
democratic principles of our treaty and charter, and consider 
support for democratic institutions as a condition for 
membership in the alliance.
    To that end, one of the top priorities that we are 
promoting at the NATO Parliamentary Assembly is to reinforce 
those values, and the strongest weapon we possess effectively 
to counter Putin regime's authoritarianism is a vibrant, 
robust, and immutable expression of the liberal democratic 
values that bind us: freedom of press, freedom of assembly, 
freedom to dissent, freedom of religion, and an unshakable 
commitment to the rule of law.
    So we have argued that NATO should establish a center for 
democratic resilience within NATO itself with the purpose of 
helping member States strengthen democratic institutions to 
serve as a resource, to establish best practices and 
benchmarking and to, frankly, provide consulting opportunities 
for existing NATO members and would-be NATO members.
    And I'm very pleased that the NATO 2030 Reflection Group, 
headed by one of our witnesses today, Dr. Wess Mitchell, 
actually adopted a version of that recommendation in its report 
to the Secretary General.
    I look forward, Mr. Chairman, to our deliberations today, 
and I'm so grateful for your partnership and that of Mr. 
Fitzpatrick, in collaborating with the NATO Parliamentary 
Assembly in this first ever hybrid hearing, and I look forward 
to hearing our discussion.
    Thank you so much.
    Mr. Keating. Thank you. Working with Vice Chairman Turner 
is Representative Austin Scott. I now recognize Representative 
Scott for your opening statement.
    Mr. Scott. Well, thank you, Mr. Chair.
    And America is stronger than ever, our military is stronger 
than ever, and our NATO alliance is stronger than ever, and so 
I look forward to being able to meet with--in person again soon 
and, again, I look forward to the conversation here today.
    I think that all of you have a lot of valuable information 
to share with us and I look forward to learning from your 
experiences.
    As a member of the NATO Parliamentary Assembly, I think 
this is a very important group, and when we talk about 
countering our adversaries, supporting our allies, reaching our 
mutual goals laid out in the NATO 2030 plan.
    Today, we'll discuss and examine the future of NATO and 
ongoing efforts to further strengthen the partnership between 
North America and Europe and others who share our interests and 
our values.
    This conversation couldn't come at a more appropriate time 
as our adversaries continue to develop new technologies and 
show aggressive behaviors that pose new challenges for NATO 
member States.
    To address these challenges, proposals of NATO 2030 focuses 
keenly or making NATO stronger and helping to adapt to growing 
global competitions. From tackling terrorism and cyber threats 
to upholding rules-based international order, this plan looks 
at how we can continue to maintain stability in our respective 
regions while also countering our common adversaries.
    Russia's multi-domain military buildup, more assertive 
posture, and provocative activities near NATO borders are just 
a few of Russia's aggressive actions making it the top threat 
to Euro-Atlantic security.
    China is making investments in critical infrastructure 
across Europe from telecommunication networks, support 
facilities, and its military reach is also getting closer to 
the Euro-Atlantic region.
    China's malign activities throughout the world have 
implications for NATO, our member nations, our allies, and 
those who share our values and our interest.
    One example is their continued over fishing and illegal 
fishing off the coast of Africa. AFRICOM Commander General 
Townsend testified that illegal, unreported, and unregulated 
fishing by the Chinese Communist Party is the primary 
contributor to a growing food crisis that will further drive 
instability in West Africa.
    If not curbed, I believe this will be an issue that will 
require more international assistance in the coming years.
    There's also great concern with China's growing role in 
international money laundering throughout the world. This 
spring, SOUTHCOM Commander Adam Fowler told the House Armed 
Services Committee that our interagency partners in the United 
States pointed out that communist China's money laundering is 
the number-one underlying source for transnational criminal 
organizations.
    Let that sink in for a minute. The Chinese Communist Party 
is aiding the activities of transnational criminal 
organizations, including the trafficking of humans, drugs, and 
weapons through money laundering.
    This is an issue I hope we can raise more attention on and 
work together to combat in regions around the world. As we 
focus on countering China and Russia aggression and the 
expansion in the Arctic, there's also an urgent need to address 
cybersecurity and cyber defense threats posed by China and 
Russia.
    As we saw just a few weeks ago, a cyber-attack can cripple 
the movement of vital goods while impacting the economy and 
disrupting daily lives. We saw that right here in America.
    I know addressing cyber concerns is one of several key 
components of NATO 2030. I look forward to working with this 
group as well as in my role as member of the House Armed 
Services Committee to address the cyber threats that NATO 
member nations face.
    I also want to, briefly, touch on the future investments 
for NATO. As we look at bolstering current programs and 
implementing new ones, there must also be a focus on continuing 
the financial support from all NATO allies.
    I applaud those who have reached the 2 percent funding 
commitment to defense spending. I hope we can get more member 
States on track to meet this goal.
    As I said in my initial statement, NATO is stronger than 
ever, the American military is stronger than ever, and America 
is stronger than ever. This commitment to the funding is key to 
our alliance.
    A focus on joint funding by all NATO member nations is key 
to continuing investments in trainings and exercises, cyber 
defense and cutting-edge technologies, and capacity building 
for our partners.
    I want to, again, thank the House Committee on Foreign 
Affairs and Subcommittee on Europe, Energy and the Environment 
and Cyber for hosting this joint hearing today.
    I also want to, again, thank our witnesses for joining us. 
I look forward to being able to meet in person.
    And, Mr. Chairman, I yield the remainder of my time.
    Mr. Keating. Thank you, Representative Scott.
    I now move to our witnesses for their opening statements.
    Mr. Anders Fogh Rasmussen is the founder and chairman of 
Rasmussen Global. He's formerly served as secretary general of 
NATO after being elected the Prime Minister of Denmark.
    I'll now recognize Mr. Rasmussen for your opening 
statement.

    STATEMENT OF ANDERS FOGH RASMUSSEN, FOUNDER & CHAIRMAN, 
RASMUSSEN GLOBAL, FORMER SECRETARY GENERAL, NATO, FORMER PRIME 
                      MINISTER OF DENMARK

    Mr. Rasmussen. Thank you very much, Chair Keating, Ranking 
Member Fitzpatrick, Representatives Connolly and Scott. Thank 
you for your opening statements.
    And I'm so sorry that I cannot be with you in person today. 
There is no substitute for people-to-people contacts to keep 
friendships alive, and in my personal case, to spend time with 
my American grandchildren, and for the these reasons I look 
forward to the United States lifting travel restrictions from 
Europe.
    Now, NATO has been a successful peace movement for nearly 
75 years. This is because of true strength and capacity to 
adapt and determined American global leadership. Both are 
interconnected, and my view is that we are at a moment where 
both strengths must converge.
    Why? Because in 2021, the free world's greatest strengths 
are being weaponized by autocrats and dictators. Open trade is 
leveraged to coerce and co-opt.
    Free speech is abused to spread polarizing disinformation. 
Technological innovation intended for benign causes is turned 
to malign ends.
    Today, threats to our freedom are complex, from the distant 
front lines of a battlefield to a foreign investment with a 
political aim to the phones we hold in our hand.
    For NATO, this means adopting a more global and a more 
political role, and I will draw the committee to three areas 
that I would like to focus on.
    First, the Indo-Pacific. NATO should broaden and deepen its 
network of democratic allies around the world with a focus on 
the Indo-Pacific. NATO may be an Atlantic alliance, but it 
includes Pacific allies. Where America strong, freedom is 
strong.
    The same applies to the Pacific. NATO should support the 
development of the Indo-Pacific court, starting with a NATO 
court summit, and we should look to expand NATO's network of 
so-called enhanced opportunities partnerships with more Indo-
Pacific nations.
    Second, on political and economic resilience, the Atlantic 
Alliance must counter the inbuilt self-doubt of free societies. 
We should stand tall for freedom and this means countering 
economic coercion.
    In my written evidence, I set out an idea for an economic 
Article 5.
    And then third, the emerging tech challenge. The free world 
must win the race to develop emerging technology and to set 
global norms and standards. I fear our disunity could lead to 
China winning the race and setting these rules.
    The U.S. Congress recently received commendations from the 
National Security Commission on artificial intelligence.
    I highly recommend them and I propose that a similar 
exercise be conducted within the trans-Atlantic space. Without 
a collective understanding, NATO will lose the race for 
technological advantage.
    So with those three ideas, I look forward to answering your 
questions. Thank you.
    [The prepared statement of Mr. Rasmussen follows:]

    [GRAPHIC] [TIFF OMITTED] T4883.024
    
    [GRAPHIC] [TIFF OMITTED] T4883.025
    
    [GRAPHIC] [TIFF OMITTED] T4883.026
    
    [GRAPHIC] [TIFF OMITTED] T4883.027
    
    Mr. Keating. Thank you.
    Ms. Rose Gottemoeller is the Frank E. and Arthur W. Payne 
distinguished lecturer at the Center for International Security 
and Cooperation at Stanford University's Freeman Spogli 
Institute for International Studies.
    Formerly, she served as deputy secretary general of NATO. I 
now recognize you for your opening statement.
    Thank you for being here.

 STATEMENT OF ROSE GOTTEMOELLER, FRANK E. AND ARTHUR W. PAYNE 
 DISTINGUISHED LECTURER, CENTER FOR INTERNATIONAL SECURITY AND 
    COOPERATION, FREEMAN SPOGLI INSTITUTE FOR INTERNATIONAL 
STUDIES, STANFORD UNIVERSITY, FORMER DEPUTY SECRETARY GENERAL, 
   NATO, FORMER UNDERSECRETARY OF STATE FOR ARMS CONTROL AND 
    INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Gottemoeller. Thank you, Chairman Keating, Ranking 
Member Fitzpatrick, Chairman Connolly, Representative Scott, 
members of the subcommittee, and the NATO Parliamentary 
Assembly.
    It's a true honor to have the opportunity to testify to you 
today about the importance of the North Atlantic Treaty 
Organization, NATO.
    If I may, Mr. Chairman, I would like to summarize some key 
points in my oral testimony and have the rest of my written 
testimony placed in the record.
    Is that acceptable?
    Mr. Keating. Without objection, yes.
    Ms. Gottemoeller. Thank you.
    NATO has finally recognized that the politics of the world 
have changed, a view, clearly, evident during the Brussels 
Summit meeting on June 14th. This moment has taken some time to 
arrive.
    NATO's political stance did not mirror the decisive action 
that it took to respond in a defensive military way to Russia's 
aggression in Ukraine in 2014.
    The Alliance was saddled with a Strategic Concept that 
dated to 2010. It described the strategic environment in a way 
that was far from the reality. I quote, ``Today, the Euro-
Atlantic area is at peace and the threat of a conventional 
attack against NATO territory is low,'' unquote.
    This characterization was hugely at odds with the quick and 
efficient military steps that NATO was taking. But some allies 
shied away from reexamining the Strategic Concept. Too many 
NATO members had a different view of what the top security 
priority should be, and they feared that debating a new concept 
would be too divisive.
    Emmanuel Macron, the president of France, called NATO out 
on this failing in November 2019 with his searing criticism 
that the Alliance was brain dead. Operationally capable, yes, 
but failing to see how the world was changing around it.
    Allied leaders picked up on this challenge at their London 
meeting in December 2019 and launched the year-long study NATO 
2030 to see if NATO could do better. Eminent experts from 
across the Alliance did the work, and you'll hear from one of 
the two co-chairs today, Dr. Wess Mitchell.
    I will not rehearse at length the recommendations of the 
2030 study. However, I would like to highlight my enthusiasm 
for the fact that NATO is launching a process to develop a new 
Strategic Concept. It is high time.
    The new concept, in my view, should enable NATO to be a 
more autonomous and effective Alliance, less dependent on 
American military power at a time when the United States is 
pivoting to the Indo-Pacific.
    I must make a brief but heartfelt comment about the issue 
of burden sharing. It will not go away. I know that many NATO 
member States are going to be searching for savings in their 
defense budgets as they address the economic crisis growing out 
of the COVID-19 pandemic.
    This process is natural at such a time, but I would 
strongly urge allies to stay the course with the 2014 Wales 
Defense Investment Pledge.
    The reason is simple. Allies need to modernize. Some are 
deploying Warsaw Pact equipment that is 50 years old. If NATO 
is to maintain readiness and reliability, never mind buildup 
its capacity, judicious modernization of military equipment 
across the Alliance needs to occur.
    This investment in the Allies' own defense is vital because 
the United States will continue its pivot to Asia. Strategic 
necessity continues to drive in that direction. Therefore, the 
NATO allies will need to do more on behalf of their own 
defense.
    Finally, I would like to reflect on the concept of 
democratic resilience at NATO, a vital and continuing goal for 
the Alliance. Here, I would like to make three points.
    First, from my own experience as deputy secretary general, 
I can attest that NATO leadership is determined to advance this 
goal and does so through deft private diplomacy.
    All of the top leaders at the NATO headquarters, civilian 
and military, take advantage of their good working 
relationships to ensure that member States receive a constant 
and compelling message about the necessity of upholding NATO's 
foundational values as laid out in the Washington treaty.
    Second, the NATO leadership also undertakes consistently 
and persistently what I call an inside out approach to working 
the issues of NATO. The Alliance consistently embraces 
democratic values and the rule of law in conducting its daily 
business.
    An example of this is how NATO insists on the application 
of international humanitarian law targeting policy and so 
trains its personnel.
    Third, NATO actively displays these values wherever it 
shows its public face. I recollect, for example, the Crisis 
Management Exercise 2018, CMX 1918, which was built on the 
principle of transparency.
    Of course, the Russians received an open invitation to 
observe the exercise and they did attend.
    These three examples lead me to a recommendation. I 
recommend that NATO should reaffirm its foundational values in 
the context of the 2030 review and the process of redoing the 
Strategic Concept.
    It is important that these values are front and center at 
this time and that NATO send a clear message about them.
    Thank you for this opportunity to testify, Mr. Chairman. I 
look forward to your questions and to our discussions.
    [The prepared statement of Ms. Gottemoeller follows:]

    [GRAPHIC] [TIFF OMITTED] T4883.014
    
    [GRAPHIC] [TIFF OMITTED] T4883.015
    
    [GRAPHIC] [TIFF OMITTED] T4883.016
    
    [GRAPHIC] [TIFF OMITTED] T4883.017
    
    [GRAPHIC] [TIFF OMITTED] T4883.018
    
    Mr. Keating. Thank you very much.
    Ambassador Ivo Daalder is president of the Chicago Council 
on Global Affairs. He formerly served as U.S. Ambassador to 
NATO.
    Ambassador, you're now recognized for your opening 
statement.

  STATEMENT OF DR. IVO DAALDER, PRESIDENT, CHICAGO COUNCIL ON 
         GLOBAL AFFAIRS, FORMER U.S. AMBASSADOR TO NATO

    Dr. Daalder. Thank you, Chairman Keating and Ranking Member 
Fitzpatrick, NATO PA President Connolly, and Representative 
Scott for the opportunity to testify before you and the members 
of the subcommittee and the NATO Parliamentary Assembly.
    I have a written statement that, if you don't mind, I would 
like to put in the record, but I will briefly summarize some of 
its key points.
    Mr. Keating. Without objection, yes. Proceed.
    Dr. Daalder. This is an opportune time to hold a hearing on 
NATO. The Alliance faces pressing security challenges as well 
as the need to reaffirm the long-standing commitment to 
collective defense, both of which were challenged in recent 
years.
    The Brussels Summit earlier this week--this month did much 
to address these challenges, and it enabled the president of 
the United States to come to its allies to renew the U.S. 
commitment to what he called the sacred obligation of 
collective defense.
    In my written statement, I detail how NATO has become the 
most successful alliance in history, and doing so primarily by 
proving adaptable to changing circumstances, successfully 
moving from a cold war alliance for its first 40 years to an 
enlarged alliance in the 1990's to an operational alliance by 
2010, and to a renewed collective defense alliance in the 
aftermath of Russia's invasion of Ukraine in 2014.
    Now NATO needs to adapt once more to meet the new 
challenges of the current age. The Brussels Summit recognized 
this need when it adopted NATO 2030, a Trans-Atlantic Alliance 
for the Future.
    It's a remarkable document, setting out a very ambitious 
agenda not only for reinforcing deterrence and defense to 
counter what Alliance leaders rightly described as the serious 
threat to Euro-Atlantic security from Russia, but also to meet 
the many new challenges that now confront NATO members.
    And I want to focus on those and mention just three.
    First, China. For the first time, NATO did recognize the 
security challenge posed by a rising China. Though it is 
geographically removed far from the North Atlantic area, NATO 
countries now understand that China's growing regional and 
global ambitions can no longer be ignored.
    At the same time, while NATO has now recognized the rise of 
China, mentioning the challenge that poses is very different 
than agreeing on how to respond to that challenge. And here, 
I'm concerned that even on the particulars Alliance members do 
not seem yet to agree on the character and the extent of the 
security challenge that China poses to NATO.
    The Brussels communique states, and I quote, ``China's 
growing influence in international policies can present 
challenges we need to address together as an alliance.'' Can, 
not does.
    NATO will have to agree on the extent to which China poses 
a direct security challenge and how that challenge should be 
met collectively. That includes the possibility of dialog and 
deeper cooperation with our partners in--our democratic 
partners in Asia that Secretary General Rasmussen talked to, 
but it will also need to include greater intelligence and 
information sharing, closer coordination of maritime and other 
military activities as China encroaches on the North Atlantic 
area, and contingency planning and exercises geared to the 
possibility of direct military confrontation.
    Second, on cyber, NATO has taken important steps to address 
the growing cyber threat to its security, including recognizing 
as early as 2014 that a cyber-attack could trigger Article 5's 
collective defense commitment. It now extended that commitment 
in the--at its Brussels Summit.
    And yet, the cyber domain continues to evolve in complex 
and dangerous ways, and in this domain, as is so often the 
case--in this domain the best defense may well be a good 
offense.
    That has not yet been NATO's focus, but it needs to start 
doing so. While NATO has agreed that it could respond to a 
cyber-attack with other means, it will also need to develop the 
doctrine and capabilities to employ cyber offensively to 
enhance deterrence of such attacks.
    Third, on Europe, and burden sharing, I just want to echo 
the comments that Rose Gottemoeller had before--made before. 
The Alliance is unbalanced. Seventy-five years after World War 
2, the United States still carries a disproportionate share of 
the burden of the common defense.
    Yes, Europeans have increased defense spending quite a bit 
over the past 7 years, but these increases do not come close to 
compensate for the precipitous decline in defense spending over 
the preceding 15 years and is still greater under investment in 
much-needed advanced capabilities.
    NATO's success requires a greater balance between its 
members with Europe taking on an ever-increasing share of the 
overall burden and responsibility for ensuring security on the 
continent.
    Most people who reach the ripe age of 72 are ready for 
retirement, but NATO is not. It still fulfills a fundamental 
purpose of uniting allies across the Atlantic in common defense 
and of common values.
    NATO has faced challenges before. It has adapted and 
emerged stronger as a result, and I have no doubt it will do so 
once again.
    Thank you for this opportunity to testify before you and I 
would be happy to answer your questions.
    [The prepared statement of Dr. Daalder follows:]

    [GRAPHIC] [TIFF OMITTED] T4883.008
    
    [GRAPHIC] [TIFF OMITTED] T4883.009
    
    [GRAPHIC] [TIFF OMITTED] T4883.010
    
    [GRAPHIC] [TIFF OMITTED] T4883.011
    
    [GRAPHIC] [TIFF OMITTED] T4883.012
    
    [GRAPHIC] [TIFF OMITTED] T4883.013
    
    Mr. Keating. Thank you, Ambassador.
    Dr. Wess Mitchell is the co-chair of the NATO 2030 
Reflection Group and formerly served as assistant secretary of 
State for European and Eurasian affairs at the U.S. Department 
of State after co-founding the Center for European Policy 
Analysis.
    I will now recognize Dr. Mitchell for your opening 
statements.

    STATEMENT OF DR. A. WESS MITCHELL, CO-CHAIR, NATO 2030 
   REFLECTION GROUP, FORMER ASSISTANT SECRETARY OF STATE FOR 
    EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Dr. Mitchell. Well, thank you, Chair Keating, Ranking 
Member Fitzpatrick, Chair Connolly, and Representative Scott 
for the opportunity to testify today.
    I will submit a written testimony, like my colleagues, for 
the record and summarize that testimony and my comments today, 
if that is acceptable to the chair.
    Mr. Keating. Yes, proceed.
    Dr. Mitchell. NATO must adapt for a new era of great power 
competition. That is the message that a high-level group of 
experts, which I had the honor to co-chair, recently delivered 
to Secretary General Stoltenberg.
    The changes needed at NATO are serious yet feasible. But 
the hour is late and the opponents of the West are gaining in 
strength. The costs of failure would be high.
    What makes NATO's adaptation so urgent is the scale of 
change that is underway in the international balance of power.
    By 2030, China's GDP is projected to be greater than that 
of the United States and European Union combined. Russia 
remains a vengeful actor with a modernized conventional 
military and one of the world's largest nuclear arsenals.
    Both China and Russia are led by despotic regimes that seek 
to undermine the democratic political order of the American 
republic and our allies. The main task facing NATO is to 
consolidate the Atlantic Alliance for an era of strategic 
simultaneity, in the words of our report, an era in which the 
West will face concurrent pressure from two large State actors 
in opposite directions from the Euro-Atlantic area.
    This new environment presents two chief dangers, one 
political and one military. The political danger is that China 
and Russia will use their size and power to divide, isolate, 
and manipulate American allies.
    China enjoys an enormous power disparity vis-a-vis 
individual Western States. Russia has a well-practiced 
repertoire of tools with which to cow smaller States. The 
danger is that our rivals will suddenly deliquesce the bond 
between the United States and its allies, rendering NATO less 
cohesive even as it continues to exist in name.
    The military danger is that China and Russia will generate 
simultaneous crises that strain or exceed our capacity to 
handle. Under the 2018 National Defense Strategy, the United 
States replaced the two-war standard with an emphasis on 
fighting one war with China in conditions in which it is 
unlikely to possess escalation dominance.
    This means that more and more U.S. military resources will 
go to the Indo-Pacific and that the United States will 
prioritize developing capabilities for Asian maritime rather 
than European land combat environments.
    These two dangers provide a baseline for how the United 
States should think about NATO's role.
    First, NATO needs a strategy that matches the world of the 
next decade. Last week, NATO leaders agreed to our report's 
recommendation to update the Strategic Concept.
    The United States should use this process to bring NATO 
into alignment with U.S. global strategic requirements by 
enhancing European allies' conventional deterrence vis-a-vis 
Russia, and affirming NATO's role in dealing with those aspects 
of Chinese behavior that affect Euro-Atlantic security.
    Second, NATO needs better tools to deal with a challenge 
from China. While it is inadvisable to push NATO to play a 
military role in Asia, it is in our interest and squarely 
within the remit of NATO's mandate for it to address Chinese 
activities that impact military readiness, interoperability, 
and secure communication in SACEUR's area of responsibility.
    Third, the United States must redouble efforts to improve 
burden sharing. It is reasonable to expect Europeans to field 
at least 50 percent of the conventional capabilities and 
enablers for securing the European theater to free up U.S. 
forces to focus on the Indo-Pacific region in the event of a 
major crisis.
    Fourth, NATO will need greater political cohesion to meet 
the growing threats from China and Russia. Efforts at European 
strategic autonomy should be welcomed insofar as they aid in 
meeting established NATO capability targets but firmly resisted 
insofar as they deepen the bifurcation of the West into 
competing blocks.
    But the threats to Western cohesion are not only or 
primarily institutional. As articulated in the North Atlantic 
Treaty, NATO exists to safeguard the freedom, common heritage, 
and civilization of its peoples founded on the principles of 
democracy, individual liberty, and rule of law.
    NATO should develop a center for democratic resilience to 
resist foreign influence in allied public institutions, and it 
should address head on the tendency of some allies to 
politicize NATO decisionmaking in ways that benefit its rivals.
    It is in the American interest to preserve and strengthen 
NATO. Even as the United States shifts focus to the Pacific, 
the Trans-Atlantic Alliance remains the seat of the free West 
and the foundation of American strength in the world.
    We have a window of opportunity to make the needed changes. 
If NATO seizes this opportunity, I'm confident the Trans-
Atlantic Alliance can deal with the profound challenges it 
faces in the coming decade.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T4883.019
    
    [GRAPHIC] [TIFF OMITTED] T4883.020
    
    [GRAPHIC] [TIFF OMITTED] T4883.021
    
    [GRAPHIC] [TIFF OMITTED] T4883.022
    
    [GRAPHIC] [TIFF OMITTED] T4883.023
    
    Mr. Keating. Thank you, Doctor, and I'd like to thank all 
the witnesses for your testimony. And without objection, the 
prepared statements of all the witnesses will be made part of 
the record.
    I'll now recognize members for 5 minutes each, and pursuant 
to House rules, all time yielded is for the purposes of 
questioning our witnesses.
    Because of the virtual format of the hearing, I'll 
recognize members by committee seniority alternating between 
Democrats and Republicans and between members of the European 
Subcommittee and of the NATO Parliamentary Assembly.
    If you miss your turn, please let our staff know and we'll 
circle back to you. If you seek recognition, you must unmute 
your microphone and address the chair verbally. I'll now 
recognize myself for 5 minutes.
    NATO continues to work with emerging and developing 
democracies in line with NATO values. To expand NATO membership 
through NATO Member Action Plans is essential and currently 
only Bosnia is the only aspirant that has a NATO Member Action 
Plan.
    To any of our witnesses, during the recent visit to 
Washington, Secretary General Stoltenberg stated that there's 
no concrete plans to expand NATO in the short term. But he also 
indicated in his statements that there ways that NATO can 
assist countries aspiring to join the alliance in this interim 
period. There are things that can be done.
    Can you--can any of our witnesses speak to what specific 
actions NATO can take in this regard, what they would suggest? 
It's an important issue. I throw the question to any of our 
witnesses.
    Mr. Rasmussen.
    Mr. Rasmussen. Thank you very much.
    First of all, let me draw your attention also to my written 
testimony that has been submitted to the committee. It seems 
that my co-witnesses are more experienced in meeting before 
your committees and they asked explicitly for permission to 
include their written statements in your records of the hearing 
and the committee. And if you don't object to that, I would 
know be pleased----
    Mr. Keating. No, I'd already done that. Just go ahead and 
proceed.
    Mr. Rasmussen. Thank you.
    To your concrete questions, I think time has come to grant 
a so-called membership action plan to Georgia and Ukraine. Both 
countries fulfill the criteria for receiving such a membership 
action plan. It is not a guarantee for future membership, but 
it is a step in the right direction.
    It would be to followup positively on the decision we took 
at the NATO Summit in Bucharest in 2008. But at that time, we 
could not agree on a membership action plan. But we decided 
that next steps should be a membership action plan.
    I think it will send an important signal to Russia. It will 
also send an important signal to the domestic audience in 
Georgia and Ukraine and encourage them to continue reforms.
    So, in conclusion, I think time has come to grant the two 
countries a membership action plan.
    Mr. Keating. Yes, Dr. Mitchell?
    Dr. Mitchell. Let me just add to that, that in the 
reflection process, it became very apparent to me that NATO 
urgently needs to reform the way that its partnerships 
function, and I'll just give you two examples of things that 
could be addressed in those reforms.
    One, and this surprises even a lot of longtime observers of 
NATO is the way partnerships are funded. They are funded on a 
voluntary basis. They're not--there's not a regular, 
predictable funding flow for partnership activities and I think 
that limits our ability to make strategic use of these tools.
    And second, the frequency with which a handful of allies, 
and I'm thinking of two in particular, politicize partnership 
activities and introduce single-country blockages to prevent 
them from functioning.
    This has happened repeatedly to Ukraine. It happens to 
Israel. It happens to Austria. And I think there are real-world 
and attainable reforms that NATO could take on that would make 
the partnership activities that it has now a lot more 
serviceable.
    Mr. Keating. Great. Yes. Ms. Gottemoeller, I also want to 
see what interim steps perhaps the countries could pursue 
themselves as well. Yes, Ms. Gottemoeller?
    Ms. Gottemoeller. Yes, thank you very much, Mr. Chairman, 
and I certainly endorse what Mr. Mitchell just had to say.
    I really found that maddening while I was deputy secretary 
general that it was impossible in some cases to move forward on 
partnerships because of blockages put in place by individual 
member States.
    But I did want to focus attention on the fact that not only 
does a NATO engage in military training and development of 
capacity building in these States, but also works on tackling 
the problem of corruption in these States.
    And I wanted to endorse the role of our NATO offices in 
these States in being able to establish good working 
relationships throughout the governments there and to really in 
that way, again, work from the inside out to try to ensure that 
the corruption that dogs these countries and really stands in 
the way of their NATO membership is dealt with over time.
    I know this is a goal for individual countries like the 
U.S. as well, but in this case very important. Thank you, sir.
    Mr. Keating. Thank you so much. My time has expired.
    I'll now recognize Ranking Member Fitzpatrick for 5 
minutes.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. My question is 
for Mr. Mitchell.
    Recently, heightened tensions between some allies and NATO 
member Turkey have prompted questions of standards for NATO 
membership.
    Secretary General Jens Stoltenberg criticized Turkey's 
acquisition of the S-400 air defense system from Russia, 
stating that it can pose a risk to our aircraft and then that 
the system cannot be integrated into NATO's air and missile 
defense system.
    Briefly, sir, can you describe how does Turkey's 
acquisition of the Russian S-400 negatively impact the NATO 
alliance?
    Dr. Mitchell. Well, thank you, Representative Fitzpatrick, 
for that very important question.
    I think there is a problem, and I'm speaking for myself 
here and not in my capacity as the co-chair of the Reflection 
Group. There's no question that Turkey's acquisition of a 
sophisticated Russian air defense system has implications for 
NATO politically.
    I think technologically some of the risks to our own 
military technologies are well known. I think it affects 
interoperability.
    And I think there's also no question that there have been 
significant political tensions between Turkey and other NATO 
members. I'm thinking of Greece and the non-NATO State, Cyprus, 
that played out as a sort of leitmotif as our--as our group was 
conducting its deliberations.
    And I would go further and say there's no question in my 
mind that many of those problems had more to do with Turkish 
behavior, including domestic factors inside Turkey. But from a 
NATO perspective, I think how we approach those issues I think 
it's a prudential question.
    We have to keep in mind that the ultimate goal is the 
cohesion of the NATO alliance as a tool to deter and defend 
against Russia and eventually also China.
    That's priority No. 1. And if in our tactics, even the best 
intentioned approach, if we undermine that goal I think we're 
counterproductive.
    So I would say the U.S. and other allies can and should 
pressure Turkey, for example, on S-400 or its other military 
technological dealings with Russia, its approach to Greece, 
another NATO member State.
    But I put it to you those efforts will be most effective if 
the pressure is occurring alongside efforts to meet Turkey's 
legitimate security concerns and make sure that it has a viable 
Western option in its foreign policy.
    So, for example, allies could do a lot better addressing 
the threat of Syrian missiles to Turkey. It is no less a 
legitimate NATO job than defending the Baltic States.
    We could do a better job of all offering Western 
technological alternatives to Turkey in a timely fashion, not 
just from the United States but other European NATO members, 
alternatives to Russian systems.
    And I think we could do a better job of incorporating 
terrorism, which Turkey has a significant interest in 
combating, incorporating that more into NATO's core tasks and 
treating the southern and southeastern dimensions of NATO as 
priorities.
    So the approach should be pressure, yes, criticize, yes. 
But do so in proportion to how much of a viable alternative 
we're giving for meeting Turkey's legitimate security concerns.
    Mr. Fitzpatrick. So if I could just in contrast, Ukraine, 
for example, has been a steadfast supporter through their 
partnership with NATO enduring at the front lines of Russian 
aggression with deepening cooperation over time, with Turkey 
working with one of NATO's most looming threats, and Ukraine 
actively working with our alliance against it.
    The open door policy, I believe, must be examined. So I 
guess my question would be why do you believe it's important 
for the alliance to not allow Russia's war in eastern Ukraine 
and illegal annexation of Crimea to permanently thwart a 
membership action plan for Ukraine?
    Dr. Mitchell. Well, I think in the case of Ukraine, and 
again, I'm speaking for myself, the best thing that the United 
States can do for Ukraine is to arm that country and to prevail 
upon European allies to arm it.
    I think we should keep up the drumbeat on membership action 
plan. But we should also consider major non-NATO ally status 
for Ukraine to ease its defense cooperation with the United 
States. That would be my thinking.
    Mr. Fitzpatrick. OK. I yield back, Mr. Chairman. Thank you, 
sir.
    Mr. Keating. Thank you.

    The chair recognizes Chairman Connolly for 5 minutes.
    Mr. Connolly. Thank you so much, Mr. Chairman, and again, 
thank you and the ranking member for this first ever joint 
hearing. I think it's so important and I think it is an 
expression of congressional support for the Alliance and for 
the renewal of NATO on a bipartisan basis.
    And I want to thank our very distinguished panel of 
witnesses, who I think are making a really thoughtful 
contribution to our dialog about how we move the Alliance 
forward.
    Ambassador Daalder, if I could start with you. You talked 
about the 2 percent. We certainly agree with you and, by the 
way, we have been arguing that for years. I mean, it's--it 
predates the previous administration.
    But could you talk a little bit, though, OK, so even if we 
have reached the 2 percent there are people who are very 
concerned about the internal State of readiness, military 
preparedness, obsolescence, lack of operational readiness of 
equipment and troops within the Alliance itself.
    Many people, for example, point to Germany as, you know, 
really not something that I feel great confidence in. And I 
just wonder if you could comment on that, too, because that--
aside from the 2 percent commitment, what about the military 
status and capability of NATO today? Should we be confident or 
should we be concerned or somewhere in between?
    Dr. Daalder. Thank you, Representative Connolly.
    I agree with you, one, on the importance of 2 percent as a 
guidepost, but also the fact that 2 percent doesn't get you 
what you really need, which is real actual military capability, 
to be part of the collective defense commitment and the 
collective security commitment that NATO has.
    And on there, we're falling short. I mentioned earlier that 
the 2 percent guideline, which was adopted in 2014, came after 
15 years of steady reduction in European investment in military 
capabilities, both by cutting defense spending, which in the 
year 2000 average spending by non-U.S. allies was 2 percent of 
GDP, and that went down to about 1.25 percent by the time NATO 
finally agreed to the guidelines.
    And then, second, by spending all of the funds that they 
had on deploying forces in operations and not investing in real 
capabilities.
    And so that's--it's that combination of under investment 
and underspending that, in some ways, has led to where we are 
today. And we need a fundamental recommitment to defense by our 
European allies to take defense more seriously than it has.
    Yes, dialog is important. But dialog doesn't work without 
defense and it's not an alternative to defense.
    And I think we need to spend our time talking about 
readiness, investments in real capabilities, ability to 
reinforce our forces, and making sure that we have the 
logistical plans, the contingency plans, all taken seriously, 
and as we think about new threats that we continue to focus on 
those real capabilities that are necessary to deal with the 
threat that already exists today.
    Mr. Connolly. Thank you--thank you so much, Mr. Ambassador, 
and I couldn't agree more. I think we have got to focus on 
both, not just the 2 percent, although I favor, of course, the 
2 percent.
    Ambassador Mitchell, I want to thank you for your report 
and I also--you know, we have a convergence on the whole issue 
of we need to elevate the whole issue operationally of our 
commitment to democratic shared values and that's incorporated 
in your recommendation to the secretary general.
    And I want to give you an opportunity to expand on why you 
thought that was so important and where you think we're likely 
to go on that, given the fact there's some internal resistance 
because some people feel that that's threatening or potentially 
embarrassing.
    Dr. Mitchell. Well, thank you, Mr. Chairman, and I also 
want to thank you and your staff for your engagement and 
attention to our reflection process as it unfolded, and the 
ideas that you fed our way were very helpful.
    On this issue specifically, as you know, our report devoted 
a lot of attention to the question of the health of democratic 
institutions inside NATO. NATO is an alliance founded on 
democratic principles, and departures from that foundation do 
weaken the Alliance, I think, in general, but particularly in 
an era of great power competition, the terms of which are not 
just material but ideological and political.
    And the question, to my mind, is what is the appropriate 
role for NATO as a security alliance when it comes to those 
kinds of issues. We debated that at length and we heard a lot 
of proposals in the Reflection Group.
    NATO is a security alliance built on a treaty that requires 
consensus of all of its members, and I found that in the 
Reflection Group process of the 30 NATO allies, the capitals 
that we engaged, I can count on one hand the number of allies 
who were willing to see NATO play more of a role in 
strengthening or engaging with domestic democratic 
institutions.
    I think, historically, NATO's approach has been more akin 
to what Ambassador Gottemoeller described eloquently a moment 
ago. It has steered away from deeper attempts at influencing, 
for example, domestic policy.
    I think the ultimate goal has to be to strengthen the 
cohesion of the Alliance, and you wouldn't want to weaken 
cohesion with finger pointing.
    But I think the right role for NATO is to focus on the 
intersection of democracy with security--with external security 
threats, which is its core function, and, of course, the 
Russians and Chinese are very well versed in working internally 
through corruption and a variety of means to weaken 
institutions. That's the sweet spot, in my mind.
    I think the idea of a democratic resilience center 
addresses that, and I am disappointed that the communique last 
week did not endorse recommendation of a resilience center.
    My understanding is that a lot of the recommendations from 
the report are still under examination by the NATO 
international staff and we'll see if that could gain traction 
in the future.
    Mr. Connolly. Thank you so much. And thank you again, Mr. 
Chairman.
    Mr. Keating. Thank you, Chairman Connolly.
    The chair recognizes Representative Scott for 5 minutes.
    Mr. Scott. Well, thank you, Mr. Chairman, and I'm going to 
ask Ms. Gottemoeller to go first and then the others could 
answer this as well. But we have all spoken to the--to the 
issue of 2 percent.
    As we all know, the domains that we're having to engage in 
are expanding, not contracting, and so we're talking about 
space. We're talking about the Arctic. Both of those are 
extremely expensive to operate in, and we're talking about 
cyber.
    And one of my concerns is where's the 2 percent actually 
being spent and are there better places to spend it.
    Ms. Gottemoeller, you spoke about modernization, that when 
we talk about modernization we typically think about, you know, 
ISR and those types of platforms or new planes that are faster, 
stealthier, or carry more powerful weapons that can be fired 
from further away.
    And that's a key aspect of the modernization that's 
happening in the United States military. But my question gets 
to cyber. Offensive actions in cyber, which are still 
considered in the gray zone, they're very cheap to carry out 
and they're--and the consequences for those that are the 
recipient of these aggressive actions are extremely damaging.
    We have seen that with the U.S. economy with regard to our 
food supply chain. It has been occurring in other areas of 
Europe repeatedly over the last several years. We're just now 
starting to feel the effects of it inside the United States.
    So, Ms. Gottemoeller, cyber--the modernization with regard 
to how we handle cyber, do you feel like NATO is focused enough 
on that in developing the offensive capabilities and the 
defensive capabilities and the sharing of information with 
regard to real-time information with the attacks and our 
abilities to both defend against them and to hack back, if you 
will, against the aggressors?
    Ms. Gottemoeller. Thank you, Mr. Scott, for that extremely 
timely and complex question.
    I would just State briefly that, in fact, NATO sets the 
requirements for member States to spend their 2 percent and I 
constantly was aware when I was DSG of the tension often 
between the requirements that NATO was setting for equipment 
that would allow for interoperability, that would allow for 
military effectiveness, especially in the acquisition of more 
mobility and more heavy armor at the time, again, when I was 
DSG for defense against Russia.
    But sometimes member States had their own ideas that they 
wanted to buy fighter aircraft rather than, you know, buy 
another heavy armor brigade.
    So it's a tension that is there. But I do want to stress 
that NATO sets the requirements and then works with the allies
    [inaudible].
    Mr. Keating. I can't hear her.
    Ms. Gottemoeller, I think we're having some technical 
difficulties at the moment. Let's just pause for a second.
    Could you continue? Could you continue?
    Ms. Gottemoeller. Yes.
    Mr. Keating. We lost you for a moment. Go ahead.
    Ms. Gottemoeller. OK. Can you hear me now?
    Mr. Keating. Yes.
    Ms. Gottemoeller. All right. Very good.
    About your very important cyber question, the point is that 
NATO has taken steps in recent years, especially with the 
adoption of policies that allow for individual member cyber--
member States to provide cyber effects to NATO should there be 
attacks during the course of a crisis or conflict.
    And this is, I would say, normal practice in that NATO 
often does not own the assets but turns to its member States to 
provide them. So providing offensive cyber effects to NATO is 
to say now that a number of member States, and it's more than 
just a handful, have offered to provide to NATO the capability 
to respond effectively should there be an attack during a NATO 
mission or operation.
    So I actually feel like NATO has been moving in the right 
direction on this. You bring up the question of information 
sharing.
    Here, there is a continuing tension over the role of 
attribution with some member States taking a strict view that 
they themselves must provide an attribution based on shared 
information, others saying that attribution can be done by the 
State under attack and then others should follow along in 
supporting them.
    So it is a matter of some stress and tension within the 
Alliance. But I think the move is in the right direction.
    Mr. Scott. Ma'am, thank you very much. My time has almost 
expired. My concern is what the cyber-attacks are doing to our 
economy and, as we all know, the economic ties are strong. They 
could be stronger and should be stronger.
    But when Russia takes aggressive actions against U.S. 
economic interest or the economic interests of our allies, that 
creates disruptions that have a tremendous impact on our 
citizens and the well-being of the world and our NATO 
partnership. And so I appreciate your comments.
    Mr. Chair, I'm over by just a few seconds, but I'll 
certainly yield to the chair. Thank you again for being here.
    Mr. Keating. Thank you, Representative Scott.
    The chair recognizes Vice Chair Spanberger for 5 minutes.
    Ms. Spanberger. Thank you very much, Mr. Chairman.
    To our witnesses, thank you so much for being here. I'd 
like to follow with--in the line of d
    So, Ms. Gottemoeller, you said that NATO is moving in the 
right direction, and I hope that we see NATO moving in the 
right direction aggressively because, certainly, we have seen 
the impact here at home of not having the cyber defenses in 
place that are necessary.
    But, Ambassador Daalder, I'd like to go to you quickly in 
this context. I'm wondering how you view that the United States 
can best support NATO's efforts to build cyber resilience in 
defense, and how the United States can be part of really 
encouraging NATO as an entity to aggressively move in the 
direction of ensuring our cyber defenses are what they need to 
be, not just now but recognizing increasing and ever-changing 
threats that exist in the cyber realm.
    Dr. Daalder. Well, thank you so much for the question. I 
think this is one of the key issues that the Alliance faces, 
and we should recognize the Alliance has done a lot over the 
last 10 years. This is an issue that has beset allies for a 
long time.
    The critical point it has focused on is defense of its own 
systems to make sure that the systems that we have operate 
effectively and that allies are able to help each other if they 
are attacked with cyber defensive measures of all kinds.
    I think the next step was to recognize that cyber could be 
deeply destructive, so destructive that it was akin to an armed 
attack--that's what it says, again, in the Brussels 
communique--and therefore could lead to Article 5.
    The issue that I think NATO needs to focus on more is cyber 
offense. That is, what are the cyber offensive capabilities, 
both in order to enhance defense that the best way to get to 
the defensive stance I to be in the systems of those who are 
attacking us, and as a means to deter attack in the first 
place.
    And I think a major step was made when President Biden in 
his press conference in Geneva made very clear that we were 
prepared to use cyber-attacks in response to further attacks on 
the United States, particularly, the 16 critical infrastructure 
targets that are part of our own domestic guidelines.
    We ought to make that part of the NATO thinking both in 
terms of the infrastructure that we're talking about, the 
target systems, and the way in which we can have defensive as 
well as offensive capabilities and I very much hope that as 
part of the Strategic Concept we will dive deeply into this and 
be more forward leaning than we have had--been in the past on 
the issue of using offensive capabilities as a means to deter 
attack in the first place.
    Ms. Spanberger. Thank you so much, Mr. Ambassador, and I do 
hope that we can be really leading the charge, echoing the 
president's comments in Geneva related to the need to be on the 
offensive in the space.
    Ms. Gottemoeller, if I could pivot back to you. In December 
of last year, you wrote a very interesting piece in Politico 
where you examined how NATO was really rethinking its Strategic 
Concept, part of the NATO 2030 report, and you mentioned where 
China is concerned NATO should develop a political approach 
focused on the Euro-Atlantic space that recognizes China's new 
role in the world.
    I think this is an important frame and I was hoping that 
you might be able to walk us through this approach, what it 
would look like, and what steps the Alliance should be taking 
in the context of contending with China.
    Ms. Gottemoeller. Thank you very much, Ms. Spanberger. 
Again, a very important question. I will refer back to Anders 
Fogh Rasmussen's remarks about how China is inserting itself 
into the Euro-Atlantic space, in particular, buying up 
infrastructure, which could hamper NATO mobility in time of 
crisis or conflict.
    So I think that NATO should be ready to engage with China 
and to, for one thing, just have a situational awareness at the 
top level so it understands what exactly is going on and what 
it may need to counter in terms of China operating in its 
space.
    Whether in the--in the commercial space, so to say, or else 
in the military space, it is exercising together with the 
Russian Federation, for example, in the Baltic Sea.
    So situational awareness is all important, but also being 
able to talk straight and talk tough to China about NATO's 
interests, and here I endorse fully the political military 
dialog that has been going on between NATO and China, the 
Chinese foreign ministry, because it gives an opportunity to 
talk about NATO's concerns but also talk about where there may 
be some joint interests.
    For example, the upcoming discussions are on the arms 
control topic, and getting China to come to the negotiating 
table, I think, has been an important goal for the United 
States, certainly, on certain critical topics.
    So I think there is definitely a way in which NATO must be 
able to engage with China. But my own view is it's not in the 
Indo-Pacific. It's actually in the European space.
    Ms. Spanberger. Well, thank you so much, Ms. Gottemoeller. 
And, Mr. Chairman, I yield back. Thank you, again, to our 
witnesses.
    Mr. Keating. Thank you.
    I've been informed that we're having some technical issues 
on the broadcast out. So I'm just going to ask us to just pause 
maybe just for a few minutes and see if they can square those 
away. We're going to recognize Representative Wagner next and 
then proceed with the hearing.
    But let's just see if we can rectify these things in a very 
few minutes. So take a chance. By a few minutes, I'm hoping 
three or 4 minutes. So let's see how we're doing then and let's 
recess for that short period, if there's no objection. Thank 
you.
    [Recess.]
    Mr. Keating. I'd like to call the committee back in order. 
There seems to be a technical issue throughout the whole 
Capitol area with other committees.
    However, we can hear each other. We're able to communicate. 
Our witnesses can hear the questions. Our members can hear the 
witnesses' dialog and answering those questions.
    So it's my feeling that although some of the broadcasts out 
they're working on the technical difficulties, I don't want to 
hold up this hearing, given the limited time and the importance 
of the hearing.
    So I will reconvene and now recognize Representative Wagner 
for 5 minutes.
    Mrs. Wagner. I thank you, Mr. Chairman, and for hosting the 
hearing and our witnesses. I want to thank you for your time in 
support of this critical Alliance.
    NATO has served as a pillar of international peace and 
stability and security for decades. Yet, Russia and the 
People's Republic of China have repeatedly shown that they view 
the cooperation of free and democratic States as a threat.
    It is clear that a strong and united NATO will be 
absolutely crucial as we confront authoritarian challenges to 
the rules-based order.
    Dr. Mitchell, Russia sent over 100,000 additional troops to 
the Ukraine's border this spring just a few months after it 
unilaterally imposed restrictions on naval movement near 
Crimea.
    Ukraine is an important NATO partner and Russia's 
threatening behavior is a worrying signal that it is willing to 
escalate its illegal offensive in Ukraine.
    In light of these developments, the Biden administration's 
decision to freeze a military aid package intended for Ukraine 
following the Biden-Putin summit, I think, sends mixed signals.
    Can you please tell us, Mr. Mitchell--Dr. Mitchell, pardon 
me--what is the current status of Russia's military buildup 
near Ukraine and how should NATO manage this crisis?
    Dr. Mitchell. Well, Representative Wagner, thank you for 
that question. I think you've touched on a very important issue 
and that's one that I'm sure is dear to the hearts of everyone 
on the call, and that is the status of Ukraine and its struggle 
to be an independent and democratic country on the borders of 
Russia.
    To answer your question directly, I also know what I've 
seen from public reporting, but it appears that there is still 
a significant concentration of Russian troops near the border 
of Ukraine.
    It appears that some of those assets were removed in the 
lead-up to the summit. I only know what I've seen in public 
reporting again, so I don't know the exact status.
    But I would say with regard to the meeting with Putin, 
diplomacy does have an important role to play at times, 
including in interactions with our most serious and determined 
opponents.
    I think in this particular case, the fact that the 
president's meeting with Mr. Putin came on the heels of a major 
Russian military buildup in Ukraine, I think that has--that 
looks from the perspective of a lot of U.S. allies in the 
region like a major concession. I think the fact that the 
meeting itself was a kind of win for Putin or it can certainly 
be----
    Mrs. Wagner. That is--Dr. Mitchell--Dr. Mitchell, what is 
NATO doing? What's NATO doing? This is a crisis.
    Dr. Mitchell. Well, NATO, of course, has partnership 
activities with Ukraine, but because Ukraine is not an Article 
5 ally in NATO, there are limits to what NATO can do to provide 
direct military assistance. NATO is very active in Ukraine in 
training and----
    Mrs. Wagner. Dr. Mitchell--I'm going to cut you off and 
reclaim my time here. I've got very limited time, many more 
questions.
    Dr. Mitchell, you've written that the old policy of hoping 
growth and enmeshment with--will turn China into a country that 
plays by established rules should be abandoned. What allies and 
areas should the U.S. Government prioritize to confront the 
People's Republic of China?
    Dr. Mitchell. Well, I think the most urgent in a NATO 
context is to have China be squarely on the agenda for the 
North Atlantic Council. I think it needs to permeate the 
existing structures and committees of NATO.
    And as our report recommended, and I was sorry to not see 
this in the communique last week, I think there needs to be a 
platform at NATO where the North Atlantic Council and the 
European Council can coordinate on security concerns vis-a-vis 
China much the way that the COCOM structure did during the cold 
war.
    I think, beyond that, there's a lot that NATO could do to, 
as Ambassador Gottemoeller said, improve our defenses against 
Chinese subversive activities inside Europe. I'm thinking of 
European infrastructure, military technological relationships 
between NATO allies----
    Mrs. Wagner. Dr. Mitchell--Dr. Mitchell, I want to get one 
more question in and just so they can be answered maybe in 
writing. In Bosnia and Herzegovina, the only NATO aspirant with 
a membership action plan, Russia is exploiting ethnic divisions 
among Serbs, Croats, and Bosniaks to stall Bosnia's accession.
    And just a few months ago, the Russian embassy in Bosnia 
issued a statement--a statement threatening that, and I quote, 
``In the event of practical rapprochement between Bosnia and 
Herzegovina and NATO, our country--meaning Russia--will have to 
react to this hostile step.'' It was pretty stunning, I think, 
that they--that they did this.
    I don't know, Ms. Gottemoeller, I don't know--in writing if 
you could respond to what we think NATO allies and the United 
States can do to combat these dangerous tactics to deter 
Russians malign activity in Bosnia.
    I'm out of time, so I will yield back. But if you could, 
Ms. Gottemoeller, respond in writing to me and anyone else. I'm 
very concerned about what's happening in Bosnia and 
Herzegovina. Thank you.
    Mr. Keating. Well, thank you, Representative. I've been 
informed and advised by the full committee that there's still 
some technical issues we have that could be in violation of 
roles if we continued before that's rectified.
    So I'm going to have to--I'm going to----
    Good news is I've just been informed--breaking news--the 
technical issue has been resolved. So I'm glad we have 
continued forward and the chair will now recognize 
Representative Larsen for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chair. Just have a couple of 
questions and perhaps we'll start with Secretary General 
Rasmussen and then go to former Deputy Secretary General 
Gottemoeller regarding NATO and Indo-Pacific.
    How should the--how should the U.S. approach the choice 
about whether or not to do--to act within NATO decisionmaking, 
NATO confines when, say, doing a freedom of navigation 
operation or any other activity to show a NATO face versus 
doing operations, say, with folks who are NATO allies but not 
doing it under a NATO banner?
    Does one or the other make any difference? Is it better for 
us to try to elevate NATO or is it better for us to move ahead 
with allies even though it won't be due--it won't be under a 
NATO rubric?
    We'll start with--we'll start with--yes, Mr. Rasmussen.
    Mr. Rasmussen. Yes. Thank you very much for that question.
    As a point of departure, I think we should elevate as many 
activities as possible to the NATO level. If I understand you 
correctly, you are speaking about exercises and other 
activities.
    But I think in general--in general we should demonstrate 
solidarity and a collective will to strengthen our defense 
through NATO exercises and also through joint and common 
funding and joint acquisition of the capabilities.
    And I fully agree with those who said the 2 percent target 
is important as a guideline, but it's not enough, and I will 
draw your attention to another target--another guideline, 
namely, 20 percent should be used in new abilities and research 
and development.
    And it is a fact that we could get much more value for 
money if we acquire critical capabilities and extensive 
military capabilities jointly instead of on a national basis. 
So also in that respect, I prefer NATO to national efforts.
    Mr. Larsen. That's fine. Former Deputy Secretary General 
Gottemoeller, can I give you about a minute and 20 seconds to 
answer that question specifically with regards to NATO and the 
Indo-Pacific?
    Ms. Gottemoeller. Yes, thank you, sir. My view, strongly 
held, is that, in fact, NATO member States are very active with 
their freedom of navigation exercises, the U.K., the U.S., 
France, and partner States such as Australia. This is very 
important.
    My own view is that NATO is the North Atlantic Treaty 
Organization, as I mentioned in my testimony. Their center of 
gravity is in the trans-Atlantic space and, furthermore, NATO 
per se is responsible for the defense of the Alliance in the 
Euro-Atlantic space.
    So I, in some ways, see the continuing focus of NATO to 
defend NATO in the Euro-Atlantic space, rather than moving its 
operation, so to say, to the Indo-Pacific. That would be my 
strongly held views, sir.
    On a personal level, I do think it's important that NATO 
pay attention to its core--its core mission and that includes, 
of course, its core tasks, the defense of NATO Europe.
    Mr. Larsen. Yes, thank you. I just would note in the NATO 
Parliamentary Assembly we get this push and pull about the 
eastern flank and the southern flank, depending on which member 
State is talking to us as NATO Parliamentary Assembly members 
from--or the United States. And so, you know, at the Indo-
Pacific then we have got a third push and pull.
    I've got 38 seconds left, and for Dr. Mitchell, President 
Connolly appointed me to be one of three members on a contact 
group with the Ukraine parliamentarians. It's a group chaired 
by Ojars Kalnins from Latvia.
    And just about the Crimean platform, and could you--could 
you address that quickly with regards to the importance of not 
recognizing the illegal occupation of Crimea and what we can do 
within NATO and how NATO should approach that, in 9 seconds?
    Dr. Mitchell. It's incredibly important. NATO has said the 
right things. I think the most important thing for your 
important mission is that we not let up or slack in our efforts 
to showcase the illegality of that annexation.
    I think what the Russians want most is by degrees to see 
certain Western European States, first de facto and then 
eventually de jure, start to recognize that.
    So I think just keep keeping closed ranks on it is the most 
important thing we can do.
    Mr. Larsen. Thank you, Mr. Chair.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Meijer.
    Mr. Meijer. Thank you, Mr. Chair. And then thank you to our 
witnesses who are here today and on this for--and to the 
committee for--the subcommittee for hosting this important 
hearing on our NATO Alliance, specifically NATO 2030 and both, 
you know, celebrating the origins and reevaluating, you know, 
how we go toward the future as we are continuing to focus on 
our shared values across the Atlantic, as we adapt from a cold 
war mentality to one that is really pitting democracies versus 
autocratic regimes, especially in Europe, but also toward some 
of our shared commitments that we have made abroad, as we mark 
the withdrawal of United States forces from Afghanistan, the 
only invocation of Article 5.
    Now, NATO Secretary Jens Stoltenberg had identified the 
need for more societal and economic resilience from the allies, 
you know, the importance of safer and more diverse supply lines 
as well in the fuel, food, and medical spaces in particular.
    During this pandemic, we have also seen some of the 
challenges with both our supply chain resiliency domestically 
but also some of the risks that a more globalized world holds, 
and then specifically on the military front and on the national 
security front, what can happen when we are overly reliant on 
international supply chains over which we do not have full 
control.
    One of the areas that deeply concerns me when it comes to 
our NATO alliance is the construction of Nord Stream 2, an 
additional Russian economic leverage over many of our northern 
European allies.
    I guess this question first. I strongly wish to target to 
Mr. Rasmussen do you believe the construction of Nord Stream 2 
and that increase of natural gas dependence, especially for 
heating, is that a step toward or away from that broader 
concern that Secretary Stoltenberg mentioned about resilience?
    Mr. Rasmussen. Thank you very much for that key question. 
To speak directly, I'm against Nord Stream 2. Nord Stream 2 is 
not an economic project. Nord Stream 2 is geopolitical project 
aiming at maintaining a European dependence on imported Russian 
gas.
    So it is as simple as that, and I strongly regret that it 
seems as if the Russians are now able to finish the project. It 
remains to be seen whether the pipeline will actually be used. 
That will very much depend on the U.S., European Union, and 
Germany.
    And in conclusion, I hope if it's finished that it will not 
be used, because it also serves the purpose to circumvent the 
Eastern European allies that will lose a lot of fees and 
duties.
    So it's clear it is part of President Putin's overall 
ambition to dominate Western Europe.
    Mr. Meijer. Thank you. Thank you, sir.
    I mean, you mentioned kind of those Eastern European 
leverage points and as well, you know, we can have discussions 
on whether or not we have--we look toward, you know, the future 
membership of certain States within NATO and if that is 
advantageous to the Alliance to join.
    I firmly believe those are discussions that should be made 
within the Alliance and not discussions that are influenced by 
the malign activities of outside powers, specifically Russia, 
and the additional leverage that they may hold.
    It does not portend for those decisions to be made, you 
know, on their merits but, rather, giving our Russian 
adversaries a greater ability to exercise that leverage.
    And I guess, Mr. Rasmussen, if I could also just followup 
with a quick final question before my time expires. You know, a 
recent Brussels Summit communique had identified combating 
corruption, promoting an inclusive political process, and 
decentralization reform based on democratic values, respect for 
human rights, minorities and the rule of law, noted these areas 
as priority reforms, specifically around Ukraine's membership.
    And I guess, just real quickly, how does Ukraine's record 
in these areas compare with current NATO member countries like 
Turkey, Poland, and Hungary?
    Mr. Rasmussen. Unfortunately, I didn't hear the whole 
question because of technical issues. But, in short, I think 
Ukraine as well as Georgia qualifies for membership of NATO, to 
go directly to the bottom line. But Putin tries to prevent them 
from seeking membership by fueling conflicts in Abkhazia, South 
Ossetia, and the Odessa region in Ukraine.
    And we shouldn't let him have a veto. It's a decision for 
NATO and the applicant countries.
    Mr. Meijer. I could not agree more.
    And, Mr. Chairman, my time has expired. So I yield back. 
Thank you.
    Mr. Keating. Thank you, Representative.
    The chair will recognize Representative Titus for 5 
minutes. I'd like to inform the other members that our hard 
stop has been extended because of the technical difficulties an 
additional 10 minutes. So if you're keeping track, we'll be 
able to go at least till 12:10.

    The chair recognizes Representative Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    All of the questions this morning and the discussion have 
really kind of revolved around several things, and one of them 
has certainly been Russian interference or how we push back 
against the tension of Russian interference.
    Secretary General, I'd like to ask you just kind of a 
specific question along the lines about North Macedonia. One of 
the conditions of North Macedonia for getting into NATO, which 
was a great accomplishment--they've been trying to do it for a 
long time--was the name change which they had a referendum and 
so did Greece to allow that to happen.
    We heard that there was considerable Russian interference 
in that election process. I wonder if you are seeing that--if 
that is accurate, or if you are seeing that in other places as 
one of the ways they're trying to exert influence and challenge 
the widening or broadening of NATO membership.
    Mr. Rasmussen. Thank you very much. I can, clearly confirm 
that the Russians tried to derail the referendum campaign in 
North Macedonia.
    Actually, I was engaged or I am engaged and I'm co-chairing 
something called the Trans-Atlantic Commission on Election 
Integrity, and we have deployed tools to detect such 
activities, among other places, in North Macedonia.
    And we could confirm Russian interference and interference 
had the aim to get people to abstain from voting because a low 
turnout would make the referendum outcome nonbinding.
    But the bottom line is they didn't succeed. Fortunately, an 
agreement was reached and North Macedonia became a member of 
NATO. So they didn't succeed. But it's not the only place.
    Now we're watching Germany. We'll have German elections in 
September this year, and I would expect heavy, heavy Russian 
efforts to meddle into those elections.
    And I wouldn't exclude Chinese attempts to do exactly the 
same. China has a key interest in an adoption of an investment 
agreement between European Union and China, and Germany has so 
far been in favor of that. So they want to influence the 
outcome of the German elections.
    Ms. Titus. Well, we have certainly seen it here and I 
suspected that it was abroad, too. So thank you for being on 
that commission to keep an eye on these things.
    You know, when you interfere with elections, it doesn't get 
more basic than that. Just one other quick question. I wanted 
to ask about climate change and how it's related to what's 
happening in the Arctic. Anybody can answer this. But, you 
know, there are new shipping lanes now and the resource-rich 
regions are now more accessible.
    But recent Russian military expansion in the region could 
threaten our equitable access to these areas and I wonder if 
NATO is involved in any way and assure that it's done and any 
kind of exploration is done in an equitable manner.
    Mr. Rasmussen. It should develop a clear Arctic strategy. 
You're quite right. We have seen Russia reopen abandoned Soviet 
air bases and military facilities in the Arctic.
    So Russia is about to militarize the Arctic, and NATO has a 
responsibility to--according to Article 5, we are all 
responsible for helping each other. So the Arctic members of 
NATO could expect that NATO develop an Arctic strategy in order 
to counter that Russian militarization of the Arctic.
    Ms. Titus. Is that in--is that in process? Is there a 
committee working on that or----
    Mr. Rasmussen. Yes, it is in process. Yes, it is in 
process.
    Ms. Titus. All right.
    Mr. Rasmussen. But I can tell you when I was secretary 
general at NATO it was impossible to move forward because of 
Canadian resistance. But Canada has gradually changed its 
position to now it's a work in progress in NATO.
    Ms. Titus. Well, thank you very much. I yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Tenney for 5 minutes.
    Ms. Tenney. Thank you, Chairman Keating and Chairman 
Connolly, for convening this important hearing today to look at 
NATO's future. And I want to thank all the witnesses for their 
very insightful testimony. Also, thank you to our Ranking 
Members Fitzpatrick and Scott.
    Preserving the Western Alliance is one of the key foreign 
policy challenges that we face. Our strong community of nations 
must adapt to adversaries like Russia and China, as we know so 
well.
    The United States cannot do this alone, and it is vital 
that Europe continues to be a central pillar of our 
international Alliance system.
    Which brings me my first question for Dr. Mitchell. The 
United States has accepted and honored our share of the 
responsibilities for European security by being clear on our 
commitment to NATO and Article 5, and pouring billions of 
dollars into the defense of Europe.
    But our efforts can be counterproductive if they're not met 
by a willingness on the part of European allies to defend their 
own continent.
    Europeans cannot expect Americans to care more about their 
security than they do with Nord Stream 2 being a perfect 
example and referenced earlier.
    What can we do realistically to make European countries 
share more of the--be more equitable partners and enjoin 
efforts to preserve the security that we need from these NATO 
allies?
    Dr. Mitchell. Well, thank you, Representative, for that 
question. I think in some ways that is the most important 
question facing the United States when we look at our alliance 
structures not only in Europe but in Asia in an era of great 
power competition.
    And we have seen successive administrations try different 
tactics. The Obama Administration tried charm. The Trump 
administration tried pressure. It's not always clear that 
either of those work.
    Under the Trump administration, European countries in NATO 
increased defense spending by something like $140 billion. But 
I think the reality is, and this is in your--the premise of 
your question, European NATO is not doing nearly enough.
    By my count right now, I see 10 allies spending 2 percent 
and I think, increasingly, given the two-front challenge that 
United States has with China and Russia, the 2 percent goal in 
Europe--in NATO is a receding de minimis requirement.
    I mean, this is the wealthiest alliance of nations on 
earth, and I think American taxpayers have a right to ask at a 
moment when we have a $25 trillion U.S. debt, why, in a way, 
we're indirectly subsidizing European social benefits. I don't 
think those questions are going to go away.
    The key point to grasp, I think, is that it's no longer 
just a matter of fairness or tax dollar stewardship. I think 
it's a strategic imperative.
    If Europe doesn't take on more of the defense burden vis-a-
vis Russia, the United States physically will struggle to be 
able to handle a major crisis in the Western Pacific if there 
were crises in, say, the Baltic and South China Sea at the same 
time.
    I'm of the personal opinion that we have to be willing to 
be creative, and so speaking for myself and not the Reflection 
Group, to answer your question I would say we should allow the 
Europeans to pool more of their capabilities as long as that 
effort is harnessed to NATO capability targets.
    So I would favor, for example, the creation of a European 
level of ambition under the NATO awning that results in Europe 
being able to field fully 50 percent of the capabilities and 
enablers in the European area.
    That would be preferable, to my mind, both to the current 
slow improvement in defense spending and to the European 
strategic autonomy idea, which I think could be pernicious to 
NATO cohesion and capabilities.
    Frankly, I don't know how we will hit the goal otherwise. I 
think we can keep pressuring allies. But I would favor getting 
creative on a European level of ambition inside NATO.
    Ms. Tenney. Thank you for the answer. Well, let me just 
followup with that. How would you--what steps would you 
actually suggest that the Biden administration take to move 
them in that direction?
    I mean, as you said, there was charm and then there was 
pressure, but President Trump did have some success with 
pressure moving some of the Allies up, especially Germany.
    Germany has, you know, the wealthiest of all the other NATO 
nations. How did we get Germany, for example, to be--to comply 
and, you know, especially in light of what I mentioned earlier, 
the Nord Stream 2 issue where the Biden administration lifted 
the sanctions and now we have, you know, this pipeline that is 
actually hurting some of our allies in Europe?
    Dr. Mitchell. Well, I think that's an important question 
and I'm--frankly, I think the administration has to keep up the 
pressure on Germany. I hope it will. It's not clear to me from 
some of the statements of senior Biden administration officials 
if we are still pressuring the Germans.
    I think the Trump administration, one of its greatest 
accomplishments in Europe was a significant increase in defense 
spending from a number of European allies.
    And I disagree slightly with my friend, Ivo. I think the 2 
percent metric in Germany's case would be a game changer. If 
Germany were spending 2 percent of its GDP on defense tomorrow, 
it would have a defense establishment, roughly, the size of 
Russia's.
    So I would say keep up the pressure, No. 1. No. 2, be 
willing to be creative. As I've said on European level of 
ambition inside NATO, that would go--it would be heterodoxical 
from the traditional U.S. approach to NATO. But as long as 
those are harnessed to European capability targets, and I think 
the administration would have the political--possess the 
political support throughout much of Europe to broach a reform 
like that within NATO, I think it would find a lot of support. 
Perhaps not from the French, but I think it would be moving in 
the right direction to put creative ideas on the table.
    Ms. Tenney. Thank you so much. My time has run out. But I 
greatly appreciate your insight, Dr. Mitchell.
    I yield back.
    Mr. Keating. Thank you. The chair recognizes Representative 
Wild for 5 minutes.
    Ms. Wild. Thank you, Mr. Chair.
    I'd like to direct my question to Mr. Rasmussen first.
    In your estimation, sir, has the Erdogan government in 
Turkey respected its commitments under Article 8 of the NATO 
charter?
    Specifically, I'm referring to its actions against the 
Kurds in northern Syria and its multiple instances of 
belligerent behavior in the Mediterranean.
    Mr. Rasmussen. Thank you very much. My brief answer is no. 
Turkey has not honored its--I would say its obligation to act 
cohesively within NATO. That goes for the intervention in 
Syria. That goes in Libya. That is true with Cyprus, and also 
the purchase of Russian military equipment.
    In all those areas, Turkey does not live up to what we 
might expect. Having said that, I would add I also think NATO 
should have done more previously, for instance, in Syria to 
establish a no-fly zone. We discussed it during my mandate as 
secretary general. But we couldn't achieve consensus within 
NATO and, consequently, the Turks concluded that they had to do 
something themselves.
    So I do believe that, in particular, the Europeans should 
realize that they should be stronger and engaged in their new 
neighborhood in the Middle East, for instance.
    Ms. Wild. Well, thank you. We have seen a change in 
rhetoric from President Erdogan recently, but it's not clear 
yet whether that rhetorical shift will be accompanied by a 
substantive change in Turkish foreign policy.
    In your view, what are the most strategic steps that the 
U.S. can take together with our allies, of course, to promote 
genuine cooperation, de-escalation, and better communication 
with Turkey?
    Mr. Rasmussen. I think we have seen a change of Erdogan's 
rhetoric. We have also seen rapprochement between Turkey and 
the European Union and European allies because he realizes that 
if he continues on the current path he will be in conflict with 
not least the American president.
    I think words matter and it's clear to me that the U.S. 
should continue to press Turkey in particular to do what the 
U.S. can do to prevent continued Turkish-Russian cooperation on 
military equipment. I consider that the most dangerous element 
in the relationship between Turkey and the U.S. and within 
NATO.
    By the way, we have recently seen that the Turks have 
increased their military cooperation with Ukraine. I also 
consider that a step in the right direction. So I think we 
should continue to pressure Turkey on those issues.
    Ms. Wild. What about Turkey's human rights abuses? I'm 
particularly concerned about their continuing crackdown on 
opposition-elected officials and dissidents. Thoughts on that?
    Mr. Rasmussen. Yes, but I can't agree more. I think it's a 
major--it is really a major problem. But on the other hand, I 
don't think external pressure on issues like democracy, 
freedom, human rights, et cetera, will result in any change.
    On the contrary, it might strengthen the current government 
in Turkey, and I think we owe it to--and we shouldn't forget 
half of the Turkish population voted against Erdogan and his 
party in recent elections, and we owe to that half to continue 
our dialog, our critical dialog, with Ankara. We also have a 
strategic interest in keeping Turkey within, I would say, a 
Western-oriented and reform-oriented course.
    Ms. Wild. Thank you. I appreciate those comments.
    And with that, Mr. Chair, I yield back.
    [No response.]
    Ms. Wild. Mr. Chair, I think you're muted.
    Mr. Keating. The chair recognizes Representative Pfluger 
for 5 minutes. Thank you.
    Mr. Pfluger. You all good? Thank you, Mr. Chair, and thank 
you to all the panelists today.
    I actually served 2 years in NATO stationed in Europe and 
as a member of the U.S. Air Force was delighted to be able to 
serve with 17 different countries at that particular location.
    I have a great appreciation for the impact that this 
organization brings, you know, not only to our member countries 
but, really, to the stability of the world. And so thank you 
for everybody's previous service, your testimony today, the 
thoughts and ideas.
    I want to kind of hone in on something that I think is 
really important. You know, when we--when we look at what each 
country can do in NATO and what each country should do, I 
appreciate the previous comments when it comes to the 
participation, not just--not just financially with the 2 
percent standard but also in these niche capabilities and 
specifically with regards to infrastructure.
    And, Mr. Secretary, if I could start with you. You know, I 
have several other questions. But, you know, one of the 
investments that NATO members are making in the way of 
infrastructure so that the rapid agile deployment of forces, 
which I think is a competitive advantage that we have as NATO 
as a--as a whole, you know, what are those infrastructure 
investments that are being made or need to be made, and then 
what are the obstacles that can hinder that?
    Because when it comes to it, access, overflight, and basing 
are so important to this organization. So, Mr. Secretary, if 
you can comment on that briefly.
    Mr. Rasmussen. Thank you very much. I think the most 
important investment we could do in Europe is to invest in 
transport capacity.
    We have more soldiers, actually, or more troops in Europe 
than the U.S., but we can't move them. Whenever Europeans 
decide to participate in an international operation we have to 
ask the United States for transport capacity.
    So it's, clearly, a critical capacity that we need to focus 
on. So speaking about infrastructure, I think transport 
capacity is the most important area at all.
    But in addition to that, we all need more in intelligence, 
reconnaissance, drones, all the modern military capabilities. 
We are lacking those capabilities in Europe. In the Libya 
operation, for instance, we were very much dependent on U.S. 
capabilities.
    Mr. Pfluger. Well, thank you for that. Let me follow this 
up with looking at some of our most vulnerable members in the 
Baltic countries, and I spent a lot of time talking to Latvia, 
Lithuania, Estonia, and the--specifically those countries but 
also the other ones that are on the eastern flank.
    You know, are we engaging non-NATO partner nations with 
these common security concerns and what are we doing to bolster 
specifically those countries and others that fall into that 
category of vulnerability?
    Mr. Rasmussen. We have already discussed Georgia and 
Ukraine, and I think an immediate first step should be to grant 
the two countries a Membership Action Plan and that way create 
a much more solid framework for our cooperation with those two 
partners.
    There is no guarantee for future membership and it's for 
them and NATO to decide, not for President Putin to intervene 
in that. And I think we could prevent his de facto veto against 
membership by deploying exactly the same principle as we did 
when Western Germany became a member of NATO and we left 
Eastern Germany outside the Article 5 guarantee.
    We could do exactly the same when it comes to Georgia and 
Ukraine and State, OK, you could become members but Article 5 
will only cover those areas under control of your government 
Tbilisi and Kyiv. That will be a formula that would actually 
deactivate President Putin's de facto veto.
    And in the Balkans we have exactly the same issue with the 
same challenges.
    Mr. Pfluger. Well, thank you very much for that.
    In my remaining 20 seconds, let me just say that I applaud 
Lithuania and their decision to leave the 17+1 cooperation 
framework over their concerns over the People's Republic of 
China's predatory and debt-trapping diplomacy that includes 
growing malign influence.
    I applaud it and I think that we as NATO, as a group, 
should continue to look for ways to counterbalance Chinese 
malign influence in addition to the Russian influence that we 
see.
    So with that, Mr. Chairman, thank you very much. I 
appreciate everyone's service to this--to this organization and 
believe in NATO and its ability to stand up to the malign 
influence of actors around the world.
    I yield back.
    Mr. Keating. The chair recognizes Representative Schneider 
for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman, and I want to thank 
you and Mr. Connolly for leading this meeting, as well as 
ranking members and our witnesses, in particular a hometown 
call out to Ambassador Daalder and the Chicago Council on 
Global Affairs. It's good to see you.
    I appreciate having this conversation highlighting the 
importance of NATO and, in particular, the significance of NATO 
2030. I also appreciate the concerns that we have raised over 
the course of this meeting, everything from dealing with China 
and Russia, concerns about cyber, the burden sharing.
    I want to give a special commendation to my colleague from 
Pennsylvania, Representative Wild, on asking the questions 
about Turkey. This has been a great opportunity for us to 
reaffirm Congress' support for NATO and discuss what the coming 
decade holds for what is, clearly, our most important strategic 
partnership.
    During the Trump administration many in Congress, including 
myself, were concerned about President Trump's lack of a clear 
outward commitment to our obligation to Article 5, the central 
tenet of NATO and our collective self-defense.
    To our allies around the world President Trump's wavering 
sowed doubt about the United States commitment to NATO and our 
other strategic partnerships. Given the overwhelming bipartisan 
support for NATO in both the House and the Senate, Congress 
pushed back.
    In the 115th Congress the only legislative item, either 
amendment or bill, to pass the Senate with a vote of 100 to 
zero was an amendment during the consideration of the National 
Defense Authorization Act that affirmed our commitment to 
Article 5.
    In the 116th Congress, the last Congress, one of our first 
bills voted out of the House was legislation by my colleague, 
Representative Panetta, the NATO Support Act, that would 
prevent the use of funds to effectuate any withdrawal from 
NATO. The bill passed overwhelmingly on suspension.
    President Biden's comments and work at the summit in 
Brussels went a long way toward mending any doubt about our 
fidelity to NATO and Article 5 and I am certain he will 
continue to make clear our ironclad commitment to NATO and our 
strategic allies.
    Ultimately, our experience under President Trump left me 
deeply concerned about a future president with similar disdain 
for alliances, fundamentally undermining our most important 
strategic partnership without Congress being able to 
meaningfully push back.
    Ambassador Daalder, I'll start with you. But my general 
question is what can Congress do to further demonstrate U.S. 
support of and commitment to NATO and make sure that that 
commitment is iron clad?
    Dr. Daalder. Thank you, Congressman, for the question. And 
I think what the Congress did in the last 4 years and, as you 
mentioned, the two major votes that were taken in both the 
House and the Senate with near unanimity in both cases, was a 
very important signal to our allies that whatever a particular 
occupant in the White House may say, Congress, and indeed, in 
our polling at the Chicago Council on Global Affairs the 
American people stand squarely behind this alliance.
    And reminding folks of that reality constantly is extremely 
important. I'm, therefore, very pleased that the NATO 
Parliamentary Assembly is being supported so strongly by 
Congress because I think that's another way in which to 
demonstrate America's commitment and to hold administration 
officials when they start to deviate from the treaty 
obligations that we have accountable for those facts as much as 
possible.
    In the end, I think NATO still remains an organization with 
very strong support in Congress. It's one of the few bipartisan 
issues where in which Republicans and Democrats and Americans 
agree on and I think demonstrating that in as best way possible 
constantly is a necessary and important reminder to our allies 
that this is an alliance that meets our security interest as 
much as it does for other members.
    Mr. Schneider. Great, thank you. Let me shift to my 1 
minute left to the climate. Coordinating our international 
response to climate change will be critical to fully living up 
to our responsibility to prevent catastrophic changes to the 
Earth's climate, as we have seen around the Earth already this 
summer and in years past.
    But we know that climate change is a threat multiplier, 
driving drought and famine, wildfires and flooding, 
transnational migration and regional conflict.
    How can NATO best adapt? How is it adapting its strategic 
outlook to incorporate climate as a threat multiplier and 
driver of regional conflict?
    And that's to anybody.
    Dr. Gottemoeller?
    Ms. Gottemoeller. Thank you very much, Congressman. That is 
a great question. I am so pleased to see the results of the 
latest NATO summit with regard to the emphasis on climate.
    It has been really strongly called out now by the NATO 
heads of State and government as an overarching strategic 
objective to take account of these climate crises that are 
emerging.
    Talking about the Arctic, we have already mentioned that. 
So I do think that the Alliance now has turned its attention to 
this in a significant way.
    I will just note the contrast a short while ago during the 
previous administration. It was not possible to do so. So I'm 
very glad that this issue of climate will be front and center 
in NATO considerations and in NATO policy development. Thank 
you, sir.
    Mr. Schneider. Great. Thank you, and I see my time has 
expired. I yield back.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Malliotakis for 5 
minutes.
    Ms. Malliotakis. Thank you, Mr. Chairman. I really enjoyed 
today's discussion. It was very enlightening. I want to thank 
those who came to testify.
    I wanted to followup on some questions one of my colleagues 
asked earlier regarding Turkey. In 2020, Turkey engaged in 
2,060 violations of Atlantic airspace, including 384 mock 
dogfights and 3,025 violations of Greece's territorial waters.
    You know, I think it's certainly a violation of Greek 
airspace. It violates both international and U.S. laws, 
including the Arms Export Control Act.
    In addition to that, we saw the U.S. Government impose 
sanctions on Turkey in December 2020 for Turkey's purchase of 
Russia's S-400 system, and also Turkey now openly supports 
Hamas, a widely designated anti-Israel terrorist organization, 
and has aided and abetted ISIS and that's well documented.
    You know, certainly, not only do these things violate 
international U.S. law, but it's also one of--against one of 
the endorsed priorities that resulted from the NATO 2030 
initiative.
    And so, I know Mr. Rasmussen has already commented. I'd 
love to hear from the other guests today if they believe that 
these actions undermine the integrity of NATO and what can and 
should NATO do to address these violations by one of its 
members.
    Mr. Mitchell is raising his hand.
    Dr. Mitchell. Thank you for that incredibly important 
question. I think these are extremely concerning actions on 
Turkey's part, and let me just say I think the single most 
important thing we can do at the U.S. level is to deepen our 
defense and security cooperation with Greece, No. 1, No. 2, to 
treat Cyprus like a vulnerable Western partner rather than just 
a U.N. reunification project in the making.
    The Trump administration introduced an eastern 
Mediterranean strategy that I think got the emphasis--the 
points of emphasis, basically, right. I hope that will 
continue.
    In the past, the United States has been a little bit 
cautious about engagement with Greece and Cyprus. But I think 
offsetting--the offsetting role that the United States can play 
in the region is significant and it actually helps to bolster 
our efforts at working closely with Turkey.
    So I wouldn't, for example, go so far as some of the 
recommendations that I heard during the Reflection Group 
process from experts about using NATO as a tool to--a punitive 
tool vis-a-vis Turkey. I think there are real perils to that 
approach.
    But I think the established practice of the secretary 
general offering his or her good services--good offices to 
mediate between Greece and Turkey is the most important thing 
that NATO can do.
    Ms. Malliotakis. Yes, Mr. Rasmussen?
    Mr. Rasmussen. Yes, if I may add to this just the following 
reflection. I think what we have seen in the Middle East is 
what happens when the United States retreats and retrenches, 
namely, you will leave behind a vacuum and that vacuum will be 
filled by the bad guys.
    That's exactly what happened when the U.S. disengaged in 
Syria. Who moved in? Turkey, Russia, Iran. So I can only 
recommend stay engaged, demonstrate determined American global 
leadership. That is a way to keep the autocrats at bay.
    Ms. Malliotakis. Yes. I mean, I believe that NATO and the 
Western Alliance need to call out Turkey for their ties in 
support of terrorist groups but also for their aggression in 
the Mediterranean and Aegean.
    I have one last question, which I'm going to try to squeeze 
in quickly. NATO has identified a need for anti-submarine 
warfare capabilities to combat a growing adversarial submarine 
threat specifically from an increased Russia presence. 
Currently, the U.S. Navy fills a lot of the mission 
requirements for NATO with its fleet of P-8 Poseidon aircraft.
    I was wondering if you can talk about the existing 
submarine threat and the requirement for NATO to address a 
capability gap.
    Mr. Daalder, if he's available or--Mr. Daalder?
    Dr. Daalder. Thank you, Congresswoman. I think the growing 
submarine threat from the north, just building on what 
Secretary Rasmussen said with regard to the Arctic, more 
generally, is a greater concern. For the first time in decades 
we're worried about the GIUK, the Greenland-Iceland-UK gap 
being penetrated easily by submarines.
    So we need a response to that, and the best response is 
what NATO was trying to put together, which is like it has done 
with AWACS, like it has done with ground surveillance systems, 
is a NATO capability which shares the responsibility and the 
funding for an anti-submarine capability that will be able to 
operate not only in the north but around the seas to defend the 
United States--to defend NATO and the countries. The U.S. will 
contribute to this.
    But I think the NATO countries don't have the resources to 
just buy these pieces of PA and other capabilities by 
themselves, and doing it collectively as it's done with air 
transportation, as is done with AWACS, as is done with ground 
surveillance systems is the way for NATO to contribute best to 
the security of the North Atlantic area.
    Ms. Malliotakis. Thank you. And thank you, Mr. Chairman, 
for allowing him to complete the answer. Appreciate it.
    Mr. Keating. Thank you. Finally, the chair recognizes 
Representative Meuser for 5 minutes.
    [No response.]
    Mr. Keating. Representative Meuser?
    Mr. Meuser. Yes, thank you. I was taking it off mute. Thank 
you, Mr. Chairman. Thank you to our ranking members. Certainly, 
thank you very much to our witnesses.
    Mr. Mitchell, last month, President Biden and the NATO 
leaders met in Brussels, as we all know, to discuss security 
challenges and adopt initiatives aimed at strengthening the 
Alliance and enhancing cohesion among allies.
    The leaders for the first time identified China's posing 
systematic challenges to aligned security and the rules-based 
international order, and underscored the NATO's relationship 
with Russia as at its lowest point since the cold war.
    NATO's increased focus on China and Russia will be critical 
to the success of the Alliance going into NATO 2030. However, 
more needs to be done to ensure our efforts are being matched 
by other NATO nations.
    So Mr. Mitchell, were you satisfied with NATO's response 
specifically to China from the summit?
    Dr. Mitchell. Well, thank you for that question, sir.
    I think it made important contributions. But there's far 
more that needs to be done. It was a--it was a productive 
summit and I think specifically on the subject of China, the 
most important thing that happened was this is the first NATO 
document that I'm aware of that went as far as it did in 
acknowledging the threat from China.
    So that's, clearly, an important step in the right 
direction. I think what's missing at this point, and it's been 
alluded to already in today's conversation, is an indication of 
what NATO is really willing to do to take on the question of 
the threat from China.
    There are a number of NATO allies who don't want to see 
NATO play a more forward-leaning role on China. They want to--
in many cases, they would wish to reserve that as a competency 
for the European Union.
    I think it's a minority of allies, but it's--their concerns 
are, effectively, impeding progress on a more substantive 
agenda, and I think you see it in some of the recommendations 
from our report on China, which were very specific that didn't 
make it into the communique.
    I mentioned the idea of a coordinating platform similar to 
the cold war era COCOM structure where the North Atlantic 
Council could air concerns about Chinese behavior even when 
NATO itself is not necessarily the tool that's being used to 
address those concerns, maybe even alongside the European 
Council.
    I think there are steps like that are well within NATO's 
reach. On the--in the conversation today, we have talked about 
efforts to improve NATO's technological edge, engage more with 
Indo-Pacific partners. In short, I think some--the leaders 
meeting last week was an important step in the right direction. 
But there's far, far more that needs to be done on China.
    Mr. Meuser. Sure. No, I certainly agree, and that was my 
next question. Is there consensus within the Alliance? I'll ask 
this, and quickly. You mentioned a few things there. What would 
you recommend the Biden administration to do to try to gain 
such consensus?
    Dr. Mitchell. Well, I think the lead up to the update of 
the Strategic Concept is a tremendous opportunity for the 
United States, and I think the Biden administration, in its 
outreach to NATO allies in that process of updating the 
Strategic Concept, has an opportunity, for example, to add a 
fourth core task.
    I say add one because we heard from--almost unanimously 
from capitals across NATO a desire to preserve the existing 
NATO core tasks. But I think adding a new one that helps to 
bring in the great power competition frame and helps to bring 
in the China question would be a logical step in the right 
direction.
    I think the administration can do a lot also to continue 
the Trump administration's momentum in making China a central 
topic in trans-Atlantic conversations at both the NATO and the 
EU level.
    And I think, for example, keeping up the momentum on the 
Clean Network, which effectively jettisons Chinese, Huawei and 
ZTE 5G operations from a majority of European countries. That 
would keep up that momentum.
    But within a NATO context, specifically, I would emphasize 
the need for a comprehensive China strategy that outlines the 
steps that NATO can take to rebut or guard against Chinese 
activities in the areas of sectors' responsibility that impact 
readiness, interoperability, and secure communications.
    I think there's a lot of low-hanging fruit there, and so I 
would--I would invest the political efforts on the handful of 
allies that are the most resistant.
    Mr. Meuser. Great. The concern of Hong Kong or, shall I 
say, the idea of Taiwan perhaps being--moving in the direction 
or China imposing itself on Taiwan in the manner it has with 
Hong Kong, what would you think NATO's response would be to 
that and how much of a hypothetical is that at this point in 
time?
    Dr. Mitchell. Well, I think it's a very real concern and I 
think from NATO's perspective there are two things. First, on 
human rights----
    Mr. Keating. I'm sorry, but we're up against a hard stop 
and we're over the time period.
    Mr. Meuser. I didn't have a clock. Excuse me, Mr. Chairman, 
I yield.
    Mr. Keating. If we could have that, you know, in writing. I 
want to thank Representative Meuser, too, for his questioning.
    I want to thank all the members of our committee for their 
participation. I want to thank my co-chair for the hearing, 
Representative Connolly, for working so hard to organize this 
hearing, and the members of the NATO Parliamentary Assembly 
that participated as well.
    It's been an important hearing and a forward-looking 
hearing, and a discussion that will be ongoing. So our period 
for questioning has now concluded.
    The members of the committee will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the limitation of the rules.
    I want to thank, again, everyone for participating.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
